<html>
<title> - FROM SANCTIONS TO THE SOLEIMANI STRIKE TO ESCALATION: EVALUATING THE ADMINISTRATION'S IRAN POLICY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                      FROM SANCTIONS TO THE SOLEIMANI 
                       STRIKE TO ESCALATION: EVALU-
                       ATING THE ADMINISTRATION'S  
                       IRAN POLICY

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            January 14, 2020

                               __________

                           Serial No. 116-89

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


       Available:  http://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                       or http://www.govinfo.gov
                       
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-916PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
                      
                       

                      COMMITTEE ON FOREIGN AFFAIRS

 ELIOT L. ENGEL, New York, Chairman
 
 BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
 GREGORY W. MEEKS, New York               Member
 ALBIO SIRES, New Jersey		     CHRISTOPHER H. SMITH, New Jersey     
 GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
 THEODORE E. DEUTCH, Florida	     JOE WILSON, South Carolina
 KAREN BASS, California		     SCOTT PERRY, Pennsylvania
 WILLIAM KEATING, Massachusetts	     TED S. YOHO, Florida
 DAVID CICILLINE, Rhode Island	     ADAM KINZINGER, Illinois
 AMI BERA, California		     LEE ZELDIN, New York
 JOAQUIN CASTRO, Texas		     JIM SENSENBRENNER, Wisconsin
 DINA TITUS, Nevada		     ANN WAGNER, Missouri
 ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
 TED LIEU, California		     FRANCIS ROONEY, Florida
 SUSAN WILD, Pennsylvania	     BRIAN FITZPATRICK, Pennsylvania
 DEAN PHILLPS, Minnesota	             JOHN CURTIS, Utah
 ILHAN OMAR, Minnesota		     KEN BUCK, Colorado
 COLIN ALLRED, Texas		     RON WRIGHT, Texas
 ANDY LEVIN, Michigan		     GUY RESCHENTHALER, Pennsylvania
 ABIGAIL SPANBERGER, Virginia	     TIM BURCHETT, Tennessee
 CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
 TOM MALINOWSKI, New Jersey	     STEVE WATKINS, Kansas
 DAVID TRONE, Maryland		     MIKE GUEST, Mississippi
 JIM COSTA, California
 JUAN VARGAS, California
 VICENTE GONZALEZ, Texas                              
                              
                                      
                 Jason Steinbaum, Democrat Staff Director
               Brendan Shields, Republican Staff Director
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                 INFORMATION REFERRED TO FOR THE RECORD

Information referred.............................................     4

                               WITNESSES

Haass, Richard, President, Council on Foreign Relations..........    19
Haines, Avril, Senior Research Scholar, Columbia University......    25
Hadley, Stephen J., Former National Security Advisor.............    34

            ADDITIONAL INFORMATION SUBMITTED FOR THE RECORD

Additonal information submitted for the from Representative 
  Zeldin.........................................................    66

                                APPENDIX

Hearing Notice...................................................    91
Hearing Minutes..................................................    92
Hearing Attendance...............................................    93

            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD

Responses to questions submitted for the record from 
  Representative Castro..........................................    94
Responses to questions submitted for the record from 
  Representative Rooney..........................................    96
Responses to questions submitted for the record from 
  Representative Titus...........................................    97

 
 FROM SANCTIONS TO THE SOLEIMANI STRIKE TO ESCALATION: EVALUATING THE 
                      ADMINISTRATION'S IRAN POLICY

                       Tuesday, January 14, 2020

                       House of Representatives,

                     Committee on Foreign Affairs,

                                     Washington, DC

    The committee met, pursuant to notice, at 10:13 a.m., in 
room 2172, Rayburn House Office Building, Hon. Eliot Engel 
(chairman of the committee) presiding.
    Chairman Engel [presiding]. The meeting will come to order.
    Without objection, all members will have 5 days to submit 
statements, extraneous material, and questions for the record, 
subject to the length limitation in the rules.
    Before I begin, I want to make the big announcement that 
today is Mr. McCaul's birthday. So, happy birthday, Mr. McCaul.
    [Applause.]
    Mr. McCaul. I am 35 years old once again.
    Chairman Engel. Me, too.
    Pursuant to notice, we are here today to examine Trump 
Administration policy toward Iran. I welcome our panel of 
distinguished witnesses. Welcome to members of the public and 
the press as well.
    We had hoped to hear from Secretary Pompeo today. Well, 
after we invited him, he announced that he would, instead, be 
in California. That is unfortunate. Whether you agree with this 
administration's approach to Iran or not, I do not think there 
is a member of this committee who does not want to hear from 
Mr. Pompeo, and the American people certainly deserve to hear 
answers with our troops and diplomats being asked to stand in 
harm's way. But this committee will conduct oversight on this 
issue one way or another. I now recognize myself for an opening 
statement.
    Under the Trump Administration, we have seen tensions with 
Iran ratchet up bit by bit to a point earlier this month when 
it seemed we were on the brink of war. Iran bears much of the 
blame for this escalation. The regime is the world's most 
prolific State sponsor of terrorism and believes that 
provocative and destabilizing behavior strengthens its hand. It 
is what we expect from Iran.
    What has helped stave off calamity for four decades is that 
the United States does not behave that way. We do not play on 
Iran's turf. Being a world leader means you do not emulate your 
adversaries. You use your power judiciously on trying to change 
behavior while seeking to diffuse conflict and prevent 
bloodshed.
    That is why the killing of Qasem Soleimani was such a 
shock, not because Soleimani was a good guy; just the opposite, 
he had the blood of many Americans on his hands. He was a 
hardened terrorist. Democrats and Republicans alike know the 
world is better off without him. But killing him was a massive 
escalation. Those who wrongly view him as a martyr have already 
used his death as a pretext for violence and retribution. 
Americans have been warned to leave Iraq and have been 
threatened with kidnapping. Iranian missiles have struck bases 
where Americans are stationed. Thousands more men and women in 
uniform have been deployed to the region. The Iraqi parliament 
has asked our troops to leave the country, even though we rely 
on that partnership in the fight against ISIS.
    Fortunately, for the moment, both the administration and 
the Iranians have taken a step back. But we have to ask, why 
was it worth turning the simmer up to a boil? That is where 
things start to get confusing.
    At first, the administration said there was an imminent 
threat. Why is that important? Because in the case of an 
imminent threat, the President has authority under Article II 
of the Constitution to protect Americans. No one doubts that.
    But, then, we heard the strike went forward because 
Soleimani did so many bad things in the past and was plotting 
for the future. Then, when that did not work, they went back to 
an imminent threat, but we did not know where or when it would 
take place. In fact, we do not even know if it was imminent, 
which makes you wonder if the word ``imminent'' still has any 
meaning.
    Next, an embassy was going to be attacked. Then, four 
embassies were going to be attacked. Then, maybe it was not 
four embassies. Then, it is widely reported that there was 
another failed strike on a different Iranian Quds Force 
official in Yemen. So, what was the justification for the 
strike which killed General Soleimani? Surely neither of the 
existing war authorizations, the post-9/11 authorization or the 
2002 Iraq War authorization, could possibly be contorted into 
an explanation for attacking Iran and Yemen.
    Finally, the administration's rather heavy reliance on the 
2002 law which authorized the war against Saddam Hussein is 
especially dubious. Was there any legal basis whatsoever for 
this strike that took us to the brink of open hostilities with 
Iran?
    We are not asking these questions because we mourn the 
death of Soleimani or sympathize with terrorists. And let me 
say right now that I will not tolerate any member of this 
committee making that sort of accusation against other Members 
of this body, even in a general sense. We are all patriotic 
Americans, Democrats and Republicans alike. We are asking these 
questions because the American people do not want to go to war 
with Iran. We are asking these questions because Congress has 
not authorized war with Iran, as we reaffirmed on the House 
floor last week. We are asking these questions because war 
powers are vested in the Congress, and if we allow any 
administration to carry out strikes like these, to risk 
plunging us into war without scrutiny, then we might as well 
cross out Article I, Section 8.
    I wanted Secretary Pompeo here today because I think the 
administration is not being straight with the country or the 
Congress. And whether you thought the Soleimani strike was a 
good idea or not, if you believe that Congress is a coequal 
branch of government and that we need to take back the 
constitutional powers we have given away to successive 
administrations, then I hope you will join me in saying we need 
answers on the record in an open setting, so the American 
people can know the truth.
    We will not be deterred from our oversight efforts. Since 
Secretary Pompeo is not here, I am sending him a letter today, 
as well as to Secretary Esper, demanding that they produce 
information on the legal basis for the strike that took out 
Soleimani and on a range of other topics. I will make those 
letters part of the record of this hearing.
    [The information referred to follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Engel. I hope our witnesses can shed some light on 
these topics as well. I will recognize each of you to make an 
opening statement.
    And let me just say that, if Secretary Pompeo is not going 
to cooperate with the committee, then we will consider very 
strongly taking other actions in the future, including 
subpoenas.
    So, I will recognize each of you to make an opening 
statement, pending which I yield to my friend, the ranking 
member, Mr. McCaul of Texas, for any opening statements he 
wishes to make.
    Mr. McCaul. Thank you, Mr. Chairman, for holding this 
important hearing.
    I will not repeat the arguments I made on the House floor 
last week during the war powers debate, other than to say that 
the world is safer without Qasem Soleimani, Iran's terror 
commander on the battlefield. And that is something, Mr. 
Chairman, I think you and I both agree on on this.
    Former Obama DH Secretary, a friend of mine, and DoD 
General Counsel Jeh Johnson said that Soleimani was a, quote, 
``lawful military objective'' and that no further congressional 
authorization was necessary. I agree with the former Obama 
Administration Cabinet member. I have talked to him extensively 
about this strike. He used to authorize these strikes under the 
Obama Administration. They conducted thousands of them.
    I wish Democrats would join in praising the President, as 
Republicans did when Osama bin Laden was killed. In many ways, 
Soleimani was just as important, if not more important, of a 
target. And I know that my colleagues on the other side are 
also relieved that this threat has been eliminated, but they 
may not be able to say so as much publicly. I wish they were 
more willing to recognize that the administration made the 
right decision in taking out Soleimani.
    Debating issues of war and peace is perhaps our most 
important responsibility on this committee and as Members of 
Congress. And I am glad that we are finally exerting our 
jurisdiction under Article I, as I am sure we are not done 
dealing with this issue.
    Soleimani, make no mistake, was a mastermind of terror in 
the Middle East for over two decades. He was designated as a 
terrorist by President Obama. He was responsible for the deaths 
of over 600 Americans and wounded thousands more. Last year, 
Iran attacked six commercial ships and downed a U.S. drone. 
Beginning October, Soleimani orchestrated 11 attacks on U.S. 
forces in Iraq, killing an American and wounding four U.S. 
servicemembers. Soleimani ordered an attack on our embassy in 
Baghdad and the damage was extensive, as shown in these 
pictures. We are lucky that no embassy personnel were hurt or 
taken hostage.
    Two days after the attack on our embassy, the 
administration struck Soleimani because, to quote Secretary 
Pompeo, ``He was actively plotting to take big action that 
would put dozens, if not hundreds, of U.S. lives at risk.'' 
This was an imminent threat.
    Chairman of Joint Chiefs General Milley said the 
administration would have been culpably negligent if they had 
not acted. And what if the President had not acted and more 
Americans were killed in an attack directed by Soleimani? What 
would the President's critics have said then?
    I believe, having been in the White House, the President 
has shown great restraint regarding Iran. Many other Presidents 
may have struck after the drone was downed. Many other 
Presidents may have struck after the American was killed. Many 
other Presidents would strike after the embassy was attacked. 
And how many Americans and how many embassies need to be 
attacked before we respond?
    He has been clear and has told me personally just last week 
that he does not want war with Iran. He wants to de-escalate, 
not escalate. And he has been very clear with his strategy on 
Iran. As he told the Nation on Wednesday, he wants a deal that 
allows Iran to thrive and prosper, provided that Iran finally 
ends its destabilizing activities in the Middle East.
    Iran needs to stop its nuclear program, stop developing 
ballistic missiles, stop supporting terrorists and proxies, 
stop taking hostages, stop oppressing its own people, and act 
as a responsible, normal nation would on the world stage.
    For the second time in recent months, the Iranian people 
are bravely protesting the conduct of this theocratic, despotic 
regime. Protesters across Iran are furious because the regime 
shot down a commercial airliner just last week, killing 176 
innocent people, many of whom were Iranian. And even worse, the 
regime did not even admit to having done it for 3 days. They 
intentionally lied to their own people and to the world.
    We are already seeing allegations, including video footage, 
depicting the regime's violence against its protesters. These 
are human rights violations. An Iranian Olympic medalist 
announced this week that she was defecting Iran because of the 
``hypocrisy, lies, injustice, and flattery''. Yesterday, Iran's 
State TV anchor resigned after more than 13 years saying, 
quote, ``It was very hard for me to believe the killing of my 
countrymen. I apologize for lying to you on TV for 13 years.'' 
In November, the Iranian regime brutally suppressed popular 
protests sparked by an increase in gasoline prices, shutting 
down the internet, and then, killing 1500 of their own 
citizens.
    Let me be clear: we stand with the people of Iran demanding 
accountability from their leaders. And I want to thank the 
President for loudly and clearly defending the rights of the 
Iranian people and urging the regime not to use violence 
against them.
    I would like to close by focusing on Iraq. The United 
States supports a strong, sovereign, and prosperous Iraq. Those 
responsible for violence against protesters and journalists 
must be held accountable, including for the killing of two 
journalists in Basra this weekend. We stand with the Iraqi 
people and support their right to freely assemble. We will 
always support freedom wherever it is. We will always support 
human rights wherever it is a struggle.
    And with that, Mr. Chairman, I want to thank the witnesses. 
I look forward to their testimony, and I yield back.
    Chairman Engel. I thank the gentleman.
    I will now introduce our witnesses. Dr. Richard Haass is 
the President of the Council on Foreign Relations. He 
previously served as the Senior Middle East Advisor to 
President George H. W. Bush, as the State Department's Director 
of Policy Planning under Secretary of State Colin Powell, and 
in various positions in the Defense and State Departments 
during the Carter and Reagan Administrations. He was also U.S. 
coordinator for policy toward the future of Afghanistan, and 
the U.S. Envoy to both the Cypress and Northern Ireland peace 
talks.
    Avril Haines is a senior research scholar at Columbia 
University, senior fellow at the Johns Hopkins University 
Applied Physics Laboratory, non-resident senior fellow at the 
Brookings Institute, and a principal at WestExec Advisors. 
During the last administration, Ms. Haines served as Assistant 
to the President and Principal Deputy National Security 
Advisor. She also served as a Deputy Director of the Central 
Intelligence Agency and legal advisor to the National Security 
Council, in addition to other senior legal positions at the 
State Department and the U.S. Senate Committee on Foreign 
Relations.
    Stephen Hadley is a principal of Rice, Hadley, Gates, LLC, 
an international strategy consulting firm. Mr. Hadley is also a 
board chair of the United State Institute of Peace and an 
executive vice chair of the board of directors of the Atlantic 
Council. Mr. Hadley served for 4 years as the Assistant to the 
President for National Security Affairs from 2005 to 2009. From 
2001 to 2005, Mr. Hadley was the Assistant to the President and 
Deputy National Security Advisor, serving under then-National 
Security Advisor Condoleeza Rice. Mr. Hadley had previously 
served on the National Security Council staff and in the 
Defense Department, including an Assistant Secretary of Defense 
for International Security Policy from 1989 to 1993.
    So, I thank our witnesses for joining us. Without 
objection, your complete prepared testimony will be made part 
of the record.
    I will now recognize you each for 5 minutes to summarize 
your opening statement, and we will begin with Dr. Haass.

   STATEMENT OF RICHARD HAASS, PRESIDENT, COUNCIL ON FOREIGN 
                           RELATIONS

    Dr. Haass. Thank you and good morning.
    Let me say that recent events that we are discussing here 
today did not take place in a vacuum. They can only be 
understood against the backdrop of nearly three-quarters of a 
century of history, in particular, recent history. Here I would 
highlight the American decision in 2018 to exit the 2015 
nuclear agreement, the JCPOA, and the decision to introduce 
significant sanctions against Iran. These sanctions constituted 
a form of economic warfare. Iran was not in a position to 
respond in kind and, instead, instituted a series of military 
actions meant to make the United States and others pay a price 
for these sanctions; and therefore, to conclude they needed to 
be removed. It is also important, I believe, to point out here 
that the United States did not provide a diplomatic alternative 
to Iran when it imposed these sanctions. This was the context 
in which the targeted killing of Qasem Soleimani took place. 
This event needs to be assessed from two vantage points.
    One is legality. It would have been justified to attack 
Soleimani if he was involved in mounting a military action that 
was imminent. If there is evidence that can responsibly be made 
public supporting that these criteria were met of imminence, it 
should be. If, however, it turns out the criteria were not met, 
that what took place was an action of choice rather than 
necessity, I fear it will lead to an open-ended conflict 
between the United States and Iran fought in many places with 
many tools and few red lines that will be observed.
    The President tweeted yesterday that the question of 
imminence does not really matter. I would respectfully 
disagree. Imminence is central to the concept of preemption 
which is treated in international law as a legitimate form of 
self-defense. Preventive attacks, though, are something very 
different. They are mounted against a gathering threat rather 
than an imminent one, and a world of regular preventive actions 
would be one in which conflict was prevalent.
    It is even more important to assess the wisdom of the 
targeted killing. There is no doubt, as the chairman said, that 
Mr. Soleimani had blood on his hands and was a force for 
instability in the region. And I do not know of any critic of 
the strike who mourns his loss. But just because Soleimani was 
evil, and just because killing him may have been legally 
justifiable, does not make it wise. And here, I have several 
doubts.
    First, there were other, and I believe better, ways to 
reestablish deterrence with Iran. Second, the killing 
interrupted what I believe were useful political dynamics in 
both Iran and Iraq. Third, U.S.-Iraqi ties were deeply 
strained. Fourth, we have been forced to send more forces to 
the region rather than make them available elsewhere. Fifth, 
given our worldwide challenges, I do not believe it is in our 
strategic interest to have a new war in the Middle East. And 
sixth, Iran has already announced plans to take steps at odds 
with the JCPOA, which will shrink the window it needs to build 
a nuclear weapon, if it decides to do so. And if this happens, 
it will present both the United States and Israel with 
difficult and potentially costly choices.
    I am fully confident that many of you will disagree with 
part or all of my assessment. But, however we got here, we are 
where we are. So, let me just say a few things about where we 
are, what we can expect, and let me make a few policy 
recommendations.
    First, the pause in military exchanges between the United 
States and Iran is just that, a pause. Iran is not standing 
down. It will continue to take military actions against the 
United States, I believe, as well as our allies.
    Second, President Trump was clear that Iran will never be 
able to have a nuclear weapon. This stance is welcome, but it 
is insufficient. Iran must also be denied attaining what I 
would describe as a near-nuclear capability. If it were to 
achieve such a capability, there is the danger at some point it 
would sprint to put together a small nuclear force and present 
the world with a fait accompli, and the fact it might do this 
would be more than enough to persuade several of its neighbors 
to do the same. Such a scenario would be a strategic and 
humanitarian nightmare.
    The JCPOA was intended to lessen the odds that such a 
scenario would come about. We can discuss the strengths and 
weaknesses of the JCPOA in detail. Let me say one thing that I 
know will come up about it. I understand the JCPOA did not 
constrain Iran's regional activity. Some would see that as a 
flaw. I would simple say arms control cannot be expected to 
accomplish everything, and if we insist that it do so, we run 
the risk it will accomplish nothing. Some things like pushing 
back against what Iran is doing in the region, that is 
something we and our friends have to do for ourselves. That was 
a central lesson of the cold war. Grand bargains seek the 
perfect at the expense of the possible.
    Let me just make a few recommendations, and I know my time 
is growing short. One, the United States should work closely 
with its allies and other signatories of the JCPOA to put 
together the outlines of a new agreement. Call it JCPOA 2.0 and 
present Iran with a new deal. It would establish longer-term 
or, better yet, open-ended limits on Iran's nuclear missile 
programs in exchange for sanctions relief. Congress should 
approve any such agreement to remove the concern that this pact 
could be easily undone by any President, and such initiatives 
should emerge from consultation with allies. Our policy toward 
Iran has become overly unilateral and is less effective for it. 
This proposal should be specific, reasonable, and articulated 
in public.
    And I want to emphasize the latter. The reason it should be 
talked about publicly is we should pressure the government in 
Tehran to explain to the Iranian people why it rejects a fair 
proposal that would reduce sanctions and raise the standard of 
living for all Iranians just so it can pursue its foreign 
policy and national surety goals. And recent protests against 
the government, against the backdrop of sanctions, create a 
good context for such a sincere public initiative.
    We must also understand that, in the wake of our exiting 
the JCPOA and introducing new sanctions, we brought about a 
dangerous situation in which Iran is slowly, but steadily 
breaking out of the constraints of the accord. It will reduce 
the time it would need to construct nuclear weapons if it 
decides to do so.
    It is essential, I would argue, that Iran understand the 
limits to what we are prepared to tolerate. This should be 
communicated to them and a message should be coordinated with 
our allies, with Iran's Arab neighbors, and with Israel.
    We should act immediately to repair our relationship with 
Iraq. We do not want to open Iraq to greater Iranian influence, 
nor do we want to see a reconstitution of terrorism inside its 
border. The threat of sanctions against Iraq ought to be 
removed. So, too, should the threat to remain, absent Iraqi 
permission. A true presence that comes to be seen as an 
occupation will be forced to spend its time protecting itself 
and will be unable to partner with Iraqi forces against 
terrorists.
    Last, but not least, let me just make one other point about 
the need to accept political reality. Regime change in Iran is 
unlikely. The Islamic Republic is resilient. But, even if this 
assessment 1 day proves wrong, there is no way of knowing that 
it will prove wrong or when it might. As a result, regime 
change cannot be the basis of U.S. strategy. It is beyond our 
capacity to engineer.
    And recent events around the region ought to have taught us 
that, even when regime change happens, it is not necessarily a 
panacea in terms of what comes afterwards. What we do need is a 
strategy for dealing with the Iran that exists and policies 
consistent with that strategy. Our objective should be to 
change Iran's behavior, to negotiate an outcome in the nuclear 
and missile realms acceptable to both countries, and through 
our actions in the region, to lead Iran to conclude that it 
will fail if it continues to try to destabilize the Middle 
East.
    Thank you, Mr. Chairman, for this opportunity to appear 
here today.
    [The prepared statement of Dr. Haass follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Engel. Thank you very much, Mr. Haass.
    Ms. Haines.

 STATEMENT OF AVRIL HAINES, SENIOR RESEARCH SCHOLAR, COLUMBIA 
                           UNIVERSITY

    Ms. Haines. Thank you, Chairman Engel. And Ranking Member 
McCaul, happy birthday. And distinguished members of the 
committee, thanks for inviting me and I am honored----
    Chairman Engel. Can you move the mic closer?
    Ms. Haines. Absolutely. Is that better?
    Chairman Engel. Yes.
    Ms. Haines. Thank you.
    So, I am honored to be here today to discuss U.S. policy 
regarding Iran and whether it is likely to serve our longer-
term objectives in the region. During my time in government, 
our goals were to prevent Iran from obtaining a nuclear weapon 
and to diminish and counter Iran's threatening and 
destabilizing behavior from its growing ballistic missile 
arsenal to its dangerous use of regional proxies, to its human 
rights abuses at home, all while avoiding a war. And these are 
still the right goals, in my view, and, in fact, they are not 
dissimilar to those articulated by the current administration. 
I am concerned, however, that the approach being taken right 
now, including, in particular, the targeted killing of Qasem 
Soleimani in Iraq, is not one that well serves these goals.
    A fundamental pillar of U.S.-Iran policy was the JCPOA, 
which was at the center of our efforts precisely because we 
realized that a nuclear-armed Iran would make the broader 
challenges harder to address. While not perfect, the JCPOA 
cutoff Iran's pathways to acquiring a bomb and significantly 
constrained Iran's nuclear program. The JCPOA was never 
intended to stand alone, but, rather, was seen as part of a 
wider regional strategy that sought to reduce Iran's 
destabilizing influence in the region, strengthen those voices 
in Iran who were pushing back against the Iranian government's 
threatening policies, and engage Iran diplomatically to avoid 
inadvertent escalation, while also putting pressure on the 
Iranian regime to change Iran's unacceptable behavior at home 
and abroad.
    Walking away from the JCPOA and imposing new sanctions on 
Iran drove a wedge between the United States and our long-term 
allies in Europe. And while the pressure of those sanctions has 
been formidable, the result has been that Iran conducted 
increasingly provocative actions in the Gulf and restarted 
significant aspects of their suspended nuclear program.
    And American allies and partners, rather than helping us 
address Iranian behavior, are instead concerned with what they 
perceive to be unpredictable and escalatory behavior on the 
part of both countries and have focused their efforts on trying 
to de-escalate the situation. And meanwhile, the withdrawal 
from the JCPOA strengthened hardline voices in Tehran, and we 
are now without real hope for another deal that would further 
restrict Iran's nuclear program, let alone any other 
destabilizing activities, such as their ballistic missile 
program.
    And this was predictable. Economic pressure on Iran can, as 
it did in the leadup to the JCPOA, affect the domestic 
political calculus associated with making a deal. But no 
Iranian analyst will tell you that economic sanctions are 
likely to have a meaningful impact on the regime's capacity to 
engage in destabilizing actions in the region. This is because 
the availability of resources for foreign proxies, a relatively 
small budget line item, has never been a serious constraint on 
Iran's regional interference.
    Moreover, to avoid disrupting the deal, the JCPOA was 
acting as a relative constraint on particularly aggressive 
behavior by the Iranian regime against the United States. 
Instead, Iran responded to this maximum pressure campaign with 
a series of steps intended to put pressure on the United 
States, including targeting American facilities and assets 
directly and through proxies.
    But, instead of carefully managing the escalation by 
responding with measured, necessary proportionate actions 
intended to effectively push back on such aggressive behavior 
by Iran, to de-escalate and deter further attacks, the 
President seemingly stepped back and, then, decided to respond 
by engaging in a targeted killing of Iran's most powerful 
commander without the consent of our partners, the Iraqis, nor 
seemingly with any consultation of our NATO or coalition 
partners in Iraq.
    As many have noted, Soleimani was an enemy of the United 
States who backed various operations against the United States 
and is responsible for the killing of Americans. But the 
question is not whether Soleimani deserved his fate. The 
question is whether this was a wise action that served U.S. 
national interests and, ultimately, made us safer.
    The administration has argued that the action was taken in 
self-defense to disrupt imminent attacks and was necessary to 
save lives. The comments of the Secretary of Defense this 
Sunday appear to contradict that assertion and, instead, the 
action appears to have been taken largely to send a message to 
the Iranians and to potentially disrupt further unspecified 
attacks.
    Yet, if that was the case, not only will our allies and 
partners view it as a violation of international law, but it is 
virtually impossible to understand why it was impractical for 
the President and his senior leadership to consult with 
Congress, our allies, and Iraq before targeting Soleimani in a 
military action that would be predictably perceived by Iran as 
an effective declaration of war by the United States.
    Directly following the strike, we sent thousands of 
additional troops to the region to defend our people and our 
assets, in light of an expected and ongoing Iranian response to 
the killing of Soleimani, thereby putting more Americans in 
harm's way. We have brought the fight against ISIL to a virtual 
standstill, with NATO suspending its training mission on the 
ground in Iraq and possible ejection of our troops from the 
country. We have strengthened the Iranian-backed elements of 
the Iraqi government, weakened those who have supported the 
United States, and we have lost standing in the region. And 
Iran announced that it will move further away from the deal by 
restarting additional elements of its nuclear program, and the 
United States is more isolated than ever.
    Given where we are today, we desperately need to invest in 
diplomatic efforts, ideally, with our allies to reduce existing 
tensions and identify a plausible path forward toward 
negotiations while promoting a more stable order that better 
serves security, human rights, and civic engagement, so as to 
provide hope of a way forward that does not inexorably lead, as 
we are now positioned, to a scenario in which the 
administration finds itself facing the choice the JCPOA was 
intended to avoid. That is, the choice of either letting Iran 
obtain a nuclear weapon or bombing Iran, and thus, launching 
what could easily become a full-scale regional war that the 
United States finds itself dragged into, having forgotten the 
lessons of our past.
    And let me just end by thanking all of you for your work on 
these issues and your efforts to advance the interest of 
Americans who rely on the government for their security and 
prosperity. I look forward to answering any questions you may 
have to the best of my ability.
    [The prepared statement of Ms. Haines follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Engel. Thank you very much, Ms. Haines.
    Mr. Hadley.
    Can you pull your microphone closer, please? Thank you.

   STATEMENT OF STEPHEN J. HADLEY, FORMER NATIONAL SECURITY 
                            ADVISOR

    Mr. Hadley. I have lost my testimony skills, I have noted.
    [Laughter.]
    Thank you for the opportunity to appear before you today. 
To provide context for today's hearing, I would like, if I may, 
to describe briefly what appears to me to have been the 
underlying dynamic that led to the recent confrontation between 
the United States and Iran in Iraq.
    In the fall of last year, Iraqi citizens across the country 
demonstrated in massive numbers. They protested what they saw 
as the corruption, sectarianism, and ineffectiveness of their 
government. They protested the overweaning influence that Iran 
exercises in Iraq, both directly and through Iranian-backed 
militias. At least two Iranian consulates in Iraq were attacked 
and burned. Demonstrations, even in the Shia south, called for 
Iran to leave Iraq, chanting ``Out, out, Iran''.
    Beginning last October, Kataib Hezbollah, an Iranian-backed 
militia, began an escalating series of attacks on Iraqi 
military bases hosting U.S. forces. I believe Kataib Hezbollah 
would not have acted without the approval of Iranian 
authorities in general and Qasem Soleimani in particular. And I 
believe this military campaign was a cynical effort to change 
the conversation within Iraq and to shift its attention from 
the issue of Iranian influence to the issue of the U.S. force 
presence, and, ultimately, to get U.S. forces thrown out of 
Iraq. The campaign escalated until a U.S. contractor was 
killed, at least four U.S. service personnel were wounded, and 
the U.S. embassy in Baghdad was attacked and partially burned.
    Some commenters will say that striking Qasem Soleimani, in 
doing so, the United States fell into Kataib Hezbollah's trap. 
But what was the alternative? The United States could not just 
stand by while its military and diplomatic personnel were 
attacked and killed. The U.S. administration clearly believed 
that striking Soleimani was so unexpected and so significant, 
both militarily and politically, that it would cause Iran to 
abandon its campaign against U.S. troops and diplomats in Iraq. 
We should all hope that it has that effect.
    The problem was that the strike occurred in Iraq. The fear 
of becoming the central battleground in a military 
confrontation between the United States and Iran is being used 
to justify calls for the expulsion of U.S. forces from Iraq. 
But a U.S. withdrawal would only reward Kataib Hezbollah's 
campaign of violence, strengthen the Iranian-backed militias, 
weaken the Iraqi government, undermine Iraqi sovereignty, and 
jeopardize the fight against ISIS--a terrible outcome for both 
the United States and Iraq.
    To keep U.S. forces in Iraq, Iraqi authorities will have to 
manage the domestic political fallout from the strike on 
Soleimani. The U.S. administration and the Congress can help by 
making statements reaffirming that America respects the 
sovereignty and independence of Iraq, that U.S. forces are in 
Iraq to train Iraqi security forces, and help them protect the 
Iraqi people from a resurgent ISIS; that the United States will 
coordinate with the Iraqi government on matters involving the 
U.S. troop presence; that so long as U.S. troops and diplomats 
in Iraq are not threatened, America's confrontation with Iran 
will not be played out on Iraqi territory, and the United 
States supports the aspirations of the Iraqi people for a 
government that can meet their needs and expectations and is 
free of corruption, sectarianism, and outside influence.
    After Iran's recent missile attacks in retaliation for the 
strike on Soleimani, both Iran and the United States appear to 
have stood down militarily. Despite some tough and 
uncompromising statements, both sides have said they want to 
avoid war and have left the door open for negotiations. Neither 
Iran nor the United States appears positioned or inclined to 
mount a diplomatic initiative. So, that role must be played by 
third parties. The European countries that participated in the 
JCPOA nuclear deal, America's regional allies, and even Russian 
President Vladimir Putin are all potential candidates.
    Iran's current policy is going nowhere. New economic 
sanctions imposed by the U.S. administration could reignite the 
massive public demonstrations that Iran put down last fall only 
with brutal force. Iran's leaders in the past have been 
pragmatic when their hold on power was threatened. However 
grudgingly, they may decide that negotiations are the least bad 
option.
    For its part, the U.S. administration still says that its 
goal is to begin negotiations to address Iran's nuclear, 
ballistic missile, and regional activities. Now may be the time 
to give diplomacy a chance.
    Thank you.
    [The prepared statement of Mr. Hadley follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Engel. Thank you very much, Mr. Hadley.
    This committee has received a lot of conflicting 
information about the killing of General Soleimani, but we have 
not received any evidence showing that this strike, or any 
other strike, was necessary to prevent an imminent attack, 
never mind an attack on four U.S. embassies, as the President 
is now claiming. To make matters worse, Secretary of Defense 
Esper says he does not have any evidence of threats against our 
embassies, either.
    So, Ms. Haines, let me ask you, as someone with significant 
experience on security matters like this, does it make sense to 
you that a military air strike would be planned and carried out 
if the Secretary of Defense was unclear about why it was 
needed? Does it make any sense to you that, if this strike was, 
indeed, necessary to save four embassies from attack, the 
administration officials would have left this out of their 
official justifications? And we should not have heard about a 
variety of demonstrable steps at those embassies to prepare for 
an attack? So, what do you make of these claims by the 
President, Ms. Haines?
    Ms. Haines. Thank you, Chairman.
    I do think the number of conflicting comments being made by 
senior administration officials about whether or not there was, 
in fact, any threat and the degree of the threat that was being 
faced are really concerning. And I think all of you, obviously, 
have access to classified information that I do not have access 
to, and I cannot tell you whether or not there is some story 
there that provides a basis for the action that was taken. But 
what is in the public realm does not add up to imminence, as I 
have understood it and as I have applied it both as a lawyer 
and a policymaker within government.
    And I think it is particularly important when you take an 
action like this to be as transparent and, frankly, to have as 
consistent of a message coming out of the government about why 
it is that we felt that was absolutely necessary to take this 
action. And that's true not just from a legal matter, but 
really from a policy perspective, which is to say that our 
allies and partners are watching us and trying to understand 
why it is that we took this action, why we thought it was 
absolutely necessary.
    And so, as has been noted I think repeatedly by all of us, 
so has Iraq, wondering why that is. And we would not have had 
the legal basis for taking an action against Soleimani in Iraq 
without their consent without it being an imminent threat. And 
they want to know what that imminent threat is, and nothing 
that has been said really backs that up.
    Thank you, sir.
    Chairman Engel. Thank you.
    As I mentioned before, I will not mourn the loss of Qasem 
Soleimani. He was a bad guy. He had the blood of our military 
and thousands of Syrian civilians on his hands. He fueled the 
Yemeni Civil War, and he imprisoned the people of Lebanon 
through Iran's support of Hezbollah.
    What concerned me about the escalation against Iran was how 
it seemed to overlooked unintended, but predictable 
consequences. Dr. Haass, you outlined several consequences in 
your testimony from Iran's withdrawal from its constraints 
under the nuclear deal to a possible premature U.S. troop 
departure from Iraq. So, let me ask you this: what should the 
Trump Administration do to de-escalate regional tensions, and 
what could the administration do to help ease the tensions with 
Iran and move toward diplomacy?
    Dr. Haass. Thank you, sir.
    I think actually there is something of an opportunity now 
for diplomacy. Steve Hadley ended his Statement saying this was 
the time. I think the sanctions have had much more of an effect 
than people predicted. I have done several books on sanctions, 
and I underestimated, quite honestly, what unilateral sanctions 
in this regard could accomplish. I think, also, the Ukrainian 
air tragedy has built on already discontent within Iran, the 
sense that the government there is putting too much into guns 
and not enough into butter.
    Up until now, we have not really given the Iranians a 
diplomatic option. Secretary Pompeo's May 18th, 2018 speech, to 
me, had all the features of an ambitious grand bargain. I took 
it as a non-starter. To me, it was tantamount to regime change 
or capitulation.
    What I think we ought to do--it could have been done, 
conceivably, if we had stayed in with the JCPOA, which would 
have been to try to get an extension of the so-called sunset 
provisions, but that is over for now. So, I think we ought to 
go public, as I said, with a modified agreement. And we can 
decide whether the constraints on nuclear activity, centrifuges 
and enriched uranium, are open-ended or for three decades, four 
decades, what have you. We can decide whether to bring missiles 
into it, which I would do. And I think we ought to talk about 
the degree of explicit sanctions relief that would accrue to 
Iran if they would sign up for that kind of an agreement.
    And I think we would find the allies would support us. 
Indeed, today's newspapers have stories about the allies being 
concerned about Iran's breakout from the JCPOA. So, I think we 
would have significant multilateral backing there, and I think 
even the Russians and the Chinese would be attracted to 
something that would be diplomatic and change the momentum.
    So, I think the time is right to put forward an initiative. 
And again, I think there is an interesting episode in Iranian 
history which is the late eighties. And the then-Supreme Leader 
accepted an outcome to the Iran-Iraq War that he said he would 
never accept. And he said, ``This is like poison to me.'' But 
the Supreme Leader accepted it because he thought it was 
essential at the time to save the 1979 revolution.
    And it is just possible that we are approaching a moment in 
Iranian history where these sanctions are having sufficient 
impact, where there might be a greater willingness on the part 
of the Iranian authorities to compromise, particularly with the 
pressure from below in the street. I could be wrong; I do not 
know, but I would test it.
    And I think we ought to put forward a diplomatic initiative 
and I think that will be clarifying. We will learn a lot about 
this Iranian government and the current context, about where 
there is the possibility of a deal. If not, then we can deal 
with the consequences about how we deal with their nuclear, 
missile, and regional programs. But let's put out there a 
diplomatic initiative that might be accepted. If not, it will 
at least be clarifying.
    Chairman Engel. Thank you very much.
    Mr. McCaul.
    Mr. McCaul. Thank you, Mr. Chairman.
    You know, really since the maximum pressure campaign was 
launched, we have seen a more and more provocative Iran. And 
since last October, Mr. Hadley talked about mounting strikes, 
one against a U.S. drone. I remember being in the White House 
debating what the response should be. Many in the room believed 
that there should be a response, that, that is all the Iranians 
would understand, that the surface air missile site should be 
hit. And yet, the President did not do that. He stepped back. 
He showed great restraint and decided not to respond. And he 
got some criticism for doing that.
    Then, as months went on, strikes continued to mount, 
culminating in an attack on our embassy and the killing of an 
American and four soldiers. And at some point, I believe a 
response is necessary when our embassy is attacked. And then, 
the final tipping point, I believe, for the President to have 
to make this decision--and I agree, Mr. Chairman, it could be a 
little clearer and I think we could declassify more of this to 
put it out in the open with the American people, not 
jeopardizing assets on the ground.
    But Soleimani is traveling to Damascus and Lebanon and he 
is ending up in Baghdad meeting with his No. 2 guy. Remember, 
the red line is an American being killed, says the President. 
So, Soleimani, he is seeing this. He is meeting in Baghdad and, 
then, he is going to fly to Tehran and meet with the Ayatollah, 
in my judgment, to get the green light to start the operation. 
Some say days; some say weeks.
    Regardless of the timing, if the President had done nothing 
and this whole scenario had played out where hundreds of 
Americans and diplomats are killed in our embassy and at our 
bases, and possibly another 1979 where diplomats are taken 
hostage, then what?
    So, Mr. Hadley, can you answer the question of the 
significance of the strike on Soleimani and whether that 
provides any deterrence to the Iranians?
    Mr. Hadley. I think that is the administration's hope. I 
think the runup is very much as you described it. I do not know 
what ``imminent'' means in any context, but it seems to me we 
were in the middle of a pattern of escalating attack on 
American personnel, diplomatic and military. And it sounds 
imminent enough to me to justify a strike.
    I think the purpose of the strike was, as you described, to 
try to deter the Iranians from continuing up this escalatory 
ladder that was going to put more men and women, American men 
and women and Iraqis, at risk. That is what they tried to do. I 
think the statements that Secretary Pompeo, then, made 
thereafter, that if there was escalation by the Iranians, even 
targets in Iran were not off the table, was again an effort to 
try to reestablish deterrence, prevent this from escalating to 
war, and open the door for a negotiating track, which the 
administration has said for some time they are open to.
    And that is, I think, one of the things that joins all 
three witnesses here, is that is what we hope is the next step 
here. We think there is an opportunity and we ought to try to 
take advantage of it.
    Mr. McCaul. And thank you. That was my next question. I do 
think all three of you agree with the pivot, if you will. We 
saw a response from Iran. It was a face-saving measure in my 
judgment, no casualties, thank God. And then, everybody took a 
step back and it de-escalated. That is the good news. I do see 
this as a window of opportunity now to exercise diplomacy, and 
you talked about NATO as well.
    Maybe for the three of you, very shortly with my time, what 
would this diplomacy look like moving forward?
    Ms. Haines. I think primarily it is actually putting 
forward what it is that the administration would be interested 
in reaching a deal on. I think that is a critical aspect of the 
next step of diplomacy. Because right now I think what has been 
described is really a non-starter--I suspect none of us would 
disagree on that point--with the Iranians.
    And I think one of the challenges that the administration 
will face at this point is actually getting the Iranians to the 
point of being willing to engage in discussions, in light of 
what they have put on the table as such a non-starter. So, I 
think there has got to be a process that you need to start to 
pull them in, essentially, in order to do this.
    Thank you.
    Can I also respond to your earlier point? I mean, I do not 
think that anybody thinks that we should not have responded at 
all to Iran. I think the real concern is the way that this 
response was done. In other words, in some respects the 
stepping back encouraged them to do more instead of having a 
response that was done early on. And then, when there was a 
response, it was so escalatory that I think it created a 
situation that makes it more challenging to go down this road 
now than it was before.
    Mr. McCaul. Well, I think the chairman and I do agree the 
world is safer without this man. He was a mastermind of terror. 
He killed a lot of Americans, wounded soldiers like Mr. Mast in 
front of me who does not have his legs anymore. And so, I do 
not have a lot of sympathy for the man.
    With that, I yield back.
    Chairman Engel. Thank you.
    Mr. Sherman.
    Mr. Sherman. Mr. Pompeo's absence today is the loudest 
testimony. It speaks volumes. It shows that the Secretary of 
State cannot defend the decisionmaking process that led us to 
this point, cannot defend the process in which, apparently, the 
President did not hear from experts on what effect this would 
have on politics in Iraq.
    Apparently, the President did not focus, as Dr. Haass 
pointed out, on the importance of the Iranian street and the 
willingness of the Iranian people to endure these sanctions 
rather than to demand that their government change or that they 
change their government. Apparently, the President heard from 
no experts on the politics of Europe or the economics or 
politics of Iran or Iraq. And apparently, the President did not 
hear from any experts in Shiite Islam about what the effect 
would be of creating a martyr in front of a people whose 
religion's foundational event was the martyrdom of Imam Hussein 
1300 years ago.
    The Secretary of State cannot defend the process in which 
Lindsay Graham is given advanced notice on a golf course, but 
the group of eight congressional leaders, a group that has 
never leaked, is not given advanced notice. He cannot defend a 
process where a disdainful tweet is treated by the President as 
official notice that he may take future military action. He 
cannot defend a process in which Congress is not told in 
classified briefing that four embassies were targeted, but he 
is free to tell a rally in Toledo. The only defense there might 
be he might have been lying in Toledo. So, the Secretary's 
failure to come here speaks quite loudly about a Presidential 
decisionmaking process that was shallow, simplistic, and 
disdainful.
    The effect of this attack was to undermine our support in 
Iraq and it was to strengthen the regime in Iran and allow it 
to continue its policies, notwithstanding our sanctions. But, 
then, an intervening and unpredicted event occurred. We helped 
the regime by creating one martyr. The regime just created 176 
martyrs.
    Ukraine Air 752 was shot down. And now, the regime has 
arrested a few people. We do not know whom, or at least I do 
not know whom. They will try to focus on some enlisted man who 
pushed a button with only 10 seconds to make a decision. What 
they will try not to focus on is the ministerial-level decision 
not to ground or even alter civilian air traffic, knowing that 
they had put their air defense system on hair-trigger alert. 
And what they know they will not focus on is the decision by 
the top regime officials to lie to the Iranian people when they 
knew the truth.
    I will ask any witness, but particularly Mr. Hadley, and I 
know we were talking about this earlier. A more authoritarian 
regime might have lied to its people longer. But I think it is 
clear to the world that the plan they had was to lie and, then, 
there was just too much evidence in the hands of Ukrainians and 
others. Could the decision to lie to the Iranian people, and 
keep lying and keep lying as more and more evidence got to the 
top leadership, could that have been made by anyone other than 
at the highest levels of the Iranian government?
    Mr. Hadley. I do not think we know how this sorted out. 
Clearly, the IRGC, which is a very powerful force in the 
Iranian administration, in the Iranian government, was going to 
take the fall for this because it was their forces that 
essentially shot down the airplane. Unfortunately, it is a very 
natural human reaction to sort of lie and deny when you have 
been caught in a bad action, and I think that was their 
reaction.
    I think it is going to be very interesting to watch----
    Mr. Sherman. But would'nt the Supreme Leader have known 
within 24 hours of the downing of the plane that, in fact, 
Iranian forces had brought it down?
    Mr. Hadley. I do not know. I cannot answer that question.
    Mr. Sherman. And does anyone here know who the Iranians 
have arrested so far, at what level or rank?
    I believe my time has expired.
    Chairman Engel. Thank you, Mr. Sherman.
    Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Mr. Chairman, according to ABC News, General Mark Milley, 
Chairman of Joint Chiefs, said, and I quote, ``The December 
27th attack on the Iraqi base near Kirkuk that killed a U.S. 
civilian contractor and wounded several U.S. and Iraqi forces 
was designed and intended to kill and Soleimani approved it. I 
know that 100 percent,'' he said. He also said, as my 
colleague, the ranking member, said a moment ago, that not to 
have acted would have been ``culpably negligent''. Former Obama 
Homeland Security Secretary Jeh Johnson said that Soleimani was 
a ``lawful military objective''. And, Mr. Hadley, today you 
said the U.S. could not just stand by while its military and 
diplomatic personnel were attacked and killed.
    Mr. Chairman, Soleimani--and let's not forget this--is 
directly responsible for killing over 600 Americans and 
disabling thousands more. He is directly responsible for 
massive death and injury of innocent civilians in the region. 
He was a mass murderer. In the last 2 months alone, he 
orchestrated 11 attacks on U.S. troops in Iraq, killing an 
American contractor, as we know.
    Mr. Chairman, and Mr. Haass, one of your colleagues said 
that, according to the Council on Foreign Relations, no 
President--we are talking about President Obama--used drone 
strikes more than President Obama, who ordered 542 drone 
strikes, killing an estimated 3,797 people, including 324 
civilians. Yes, they were not as high a target. They were not a 
mass murderer of the caliber and of the degrading influence 
that Soleimani had had, both in the region and in his own 
country. The 1500 people that were killed protesting, demanding 
democracy, demanding a change, they showed them no mercy. He 
showed them no mercy.
    Let me just ask a question, if I could, with regards to the 
money that was gleaned by Iran as a result of the Iranian, 
American, and European nuclear arms deal. I had asked Secretary 
Lew back in July 2015 how much are we really talking about. The 
BBC recently said it was $100 billion, with a ``B''. The New 
York Times suggested $100 billion. He said it was $115 billion, 
theoretically, but probably closer to $58 to $59 billion. I do 
not know what it is. We do not have a clear sense of that, but 
that is a lot of money, if that is how much it was.
    But my question is, how much money did Iran actually get? 
How much of that was deployed to fund terrorism, including the 
procurement of weapons, to pay the IRGC troops, the Quds Force, 
which has massively expanded their operations? Did Soleimani 
and other terrorists personally benefit? When all of that money 
was sent in crates on pallets, $1.7 billion, smaller bills, who 
got that money? Where did it go? I have asked that question. 
Many of my colleagues, both sides of the aisle, have asked that 
question. Did it fund terrorism?
    When he answered the question again--this is Secretary 
Lew--he said, and I quote, ``We can't say there won't be any 
more money going to malign purposes.'' Secretary Kerry has said 
similar things. How much? I mean, to give such massive amounts 
of money to mass murderers, terrorists, is unconscionable in my 
view. So, how much? Can anybody speak to that with any kind of 
clarity?
    Ms. Haines. So, this idea that billions of dollars that 
came out of the deal were then used to launch ballistic 
missiles or to fund IRGC, et cetera, it is just it is patently 
untrue.
    Mr. Smith. So, none of that money has been used for that?
    Ms. Haines. No. Let me finish my answer and I will give you 
the same.
    In return for a permanent and verifiable halt to Iran's 
nuclear program, the United States along with our P5-plus-1 
partners provided relief of nuclear-related sanctions to Iran. 
But even senior Trump Administration officials have conceded 
that the vast majority of Iran's unfrozen funds--so, funds that 
were theirs that we had frozen that, then, they were able to 
access--went to domestic requirements, right, including debt 
servicing.
    And what is more, even at the height of international 
sanctions, Tehran amply funded the IRGC and its proxies. So, it 
is certainly not the case that Iran needed unfrozen funds in 
order to sustain their activities. Far from it, the IRGC has a 
relatively small budget, and making its activities sustainable 
through sanctions, the IRGC built Hezbollah, in fact, during 
Iran's last war.
    Mr. Smith. OK. Let me ask you this: how much of the money 
was diverted to the procurement of weapons from Russia, for 
example, surface-to-air missiles? Do we know?
    Ms. Haines. I do not know.
    Mr. Smith. You do not know? Okay. Does anybody on the panel 
know?
    Ms. Haines. But the point is that they could conduct these 
activities without that----
    Mr. Smith. More money means you can do more of it.
    Dr. Haass. Can I just say two things? One is, obviously, 
money is fungible. So, if you get money, it can be used for 
whatever purpose you want. I think it is important to say that 
a lot of the funds you are talking about, all of them were 
Iranian.
    I would like to, though, focus on the first thing you said 
because I actually think you have opened up something that has 
not been talked about in the narrow debate about imminence. If 
imminence was not met or, as the President tweeted, if 
imminence does not matter, then the only rationale for what the 
United States did was either prevention, which is an open-ended 
thing--we do not want certain things to happen whenever they 
might--or it is retaliation for what Soleimani had done in the 
past.
    If we are talking about justifying American military, the 
use of military force for either prevention or for retaliation, 
that is something--that is basically called war. That is why we 
fight wars. We want to prevent things or we want to retaliate.
    Again, imminence is preemption. Under international law, 
under the U.N. Charter, that gives you the right of 
anticipatory self-defense. It is a special category. It is when 
you hit a missile just when it is about to be launched. You get 
an airplane when it is about to take off.
    But to do either retaliation or prevention is a big step. I 
am not saying it is wrong. I am just saying it is a big step. 
It would be the kind of thing we would do against Iran, 
conceivably, if all of our arms control efforts failed, Iran 
was developing a nuclear weapons program, and we said we have 
to stop it. It is the kind of thing that Israel did against 
both Iraq and Syria. Those were preventive strikes. It is a big 
step we have to think about.
    All I am saying, I think for Congress and for this 
committee, as I understand the AUMS and all that, we do not 
have at the moment authority to carry out preventive or 
retaliatory----
    Mr. Smith. And on that point--and I know my time is over--
but Jeh Johnson said that Soleimani was a ``lawful military 
objective''. You do not agree?
    Dr. Haass. I do not agree because he is----
    Mr. Smith. He was in Baghdad.
    Dr. Haass. He was an agent, he is an agent of a State, of a 
country. If he were simply working for a terrorist 
organization, then we have all the authorities we want. But, as 
an official of the Iranian government who is using terrorist-
like tactics----
    Mr. Smith. He was designated a terrorist under the Obama 
Administration.
    Dr. Haass. And again, I have questions about the validity. 
I think that we have to be careful. He is an agent of--I am not 
saying it was right or wrong. All I am saying is it is a big 
step and we should think about we may want to do it; we may not 
want to do it. But the idea of using military force for 
preventive or retaliatory reasons against officials of the 
Iranian government or against Iran directly is a big step for 
the United States. And I think it is something that this 
committee, and the Congress more broadly, ought to contemplate 
the pros and cons of doing it.
    Chairman Engel. Thank you, Dr. Haass.
    Let me say, before I call on Mr. Meeks, that it really is 
false to compare the legality of strikes against al-Qaeda, 
including against Osama bin Laden, with the killing of an 
Iranian official because Congress specifically authorized 
strikes against al-Qaeda after 9/11. We have never authorized 
strikes against Iran, and to say otherwise is just not 
factually correct.
    Let me call on Mr. Meeks.
    Mr. Meeks. Thank you, Mr. Chairman.
    And thank you, Dr. Haass, because that is exactly where I 
was going to start my thoughts, because, clearly, the 
administration initially thought that they did not have the 
authority to do the strike, other than utilizing the fact that 
there was an imminent threat. If they thought they had other 
avenues of which to justify it, they would not have said, as 
they did over the first couple of days, that they did it 
because there was an imminent threat, and the President then 
saying that there were four embassies, or he thought four 
embassies, that were going to be threatened.
    And so, for me, when you talk about the assassination of 
General Soleimani, it was not to stop an imminent Iranian 
attack against the United States. Nothing that I have seen in 
classified settings or otherwise has shown me one shred of 
support for the President's initial claim that there was such a 
threat.
    Given conflicting explanations coming out of the 
administration about the killing of Soleimani, it is 
particularly striking to me, first of all, that Secretary 
Pompeo is not here today to speak directly to this committee. 
Over and over again, we see from the Trump Administration a 
clear disregard for congressional oversight responsibilities as 
an equal branch of government. And with this escalation of 
hostilities in the Middle East, we see other consistent 
patterns. There is no strategy. There is conflicting stories 
and there is even downright lies.
    I have disagreed with actions of previous administrations 
when it came to acts of military aggression that set us on the 
course for war. But I have to say this: at least they showed up 
for those actions and to produce a case. This administration 
does not even have the guts to make the case for what it did, 
whether it was preemptive, preventive, defensive, or simply 
retaliation. Congress must have the facts surrounding this 
assassination. Our men and women in uniform deserve the facts. 
The American people deserve the facts. Congress demands those 
facts in the face of impulsive actions by the President of the 
United States.
    President Trump may have infatuation for, as we have seen 
during his course of office, dictators and authoritarian 
governments, but we have neither of those in the United States 
of America. And Congress and the American people must get 
answers. The list of actions that are legally and strategically 
questionable continue to pile up in this administration. And 
yet, they still refuse to provide clear and honest answers.
    Pulling out of the JCPOA, no strategy. Abandoning the 
Kurds, no strategy. The specific benefit of assassinating 
Soleimani, no strategy. Suggesting that the U.S. will destroy 
cultural sites in Iran, no strategy. Denying Iran's Foreign 
Minister Zarif a visit to go to the United Nations, no 
strategy. Suggesting that we will punish Iraq if it follows 
through on expelling our military, no strategy.
    We need answers. Were the U.S. embassies in jeopardy of 
attack or not? What do the American people need to know about 
talks with Iran facilitated by Switzerland? What happened in 
Yemen? And what happens now that we have, by this strike, 
devoted the attention away from the fight against ISIS? Reports 
indicate acknowledgment of our allies that the focus has 
shifted, at least for now.
    So, Dr. Haas, and then, I hear the President is now saying 
that NATO should be more involved. Whether or not there was 
questions or whether or not he informed any of our NATO allies 
before this strike what he was going to do or why he was going 
to do, et cetera, we do not know. But going to our allies after 
the fact seems to me to be questionable also.
    But I would like to know from your estimation, sir, what 
specific role could and should NATO play with respect to the 
Middle East and the Persian Gulf, given the United States 
withdrawal from the JCPOA? And what parameters are necessary 
before the alliance considers additional operations in the 
region, so that we are working collectively together as one?
    Dr. Haass. Well, thank you, sir.
    As a first step--it is not NATO, but it would involve 
several of the European members of NATO--I would think to 
consult about the JCPOA, what I call, 2.0, some future 
initiative, and to also consult about how we would respond in 
terms of sanctions to gradual Iranian breakout of the 2015 
agreement. That ought to be a U.S.-European undertaking.
    I also think we ought to be consulting with Saudi Arabia, 
Israel, and others, about how we deal with the possibility that 
Iran will, directly or indirectly, undertake other military 
actions around the region. I do not want to see a repeat, for 
example, of the sort of thing we saw when the Saudi oil 
installations were attacked, and we did not respond. I think 
that erodes deterrence.
    In terms of NATO more formally, this is an obvious out-of-
area mission, and the question is whether it is protecting oil 
traffic. One could imagine some joint efforts to protect 
certain countries in the region. Again, it would be a big out-
of-area undertaking for NATO, but there is no reason we ought 
to do this unilaterally. And I think we have a much better 
chance of getting NATO to do something like this if it were 
done in the larger context of being coupled with a diplomatic 
initiative.
    Mr. Meeks. Thank you. Out of time.
    Chairman Engel. Thank you, Mr. Meeks.
    Mr. Chabot.
    Mr. Chabot. Thank you, Mr. Chairman. Many in the mainstream 
media and many of my colleagues on the other side of the 
aisle--not all, but many--have been very critical of the 
President's action in taking out Soleimani and said it is 
irresponsible and warlike and he wants to start another war.
    I would argue, as our ranking member said a little while 
ago, that I think this President's responses to Iranian 
aggression has been very restrained, whether it was shooting 
down our drone or attacks on international shipping or their 
overall general aggression in the region.
    This President has not taken significant military action, 
even in this case. It was very targeted. It was decisive. It 
was justified, I would argue long overdue when one considers 
how much blood--American blood and others--that this monster 
had on his hands. So it is good he is dead, and it is good 
there was not significant collateral damage. And I think that 
this President showed great responsibility, and I think we 
should be proud of the action he took.
    With that said, there are ongoing protests now, and 
accelerated protests really, because of the airliner being shot 
down by the Iranians. And the previous administration of course 
got some criticism when during the Green Movement, when the 
people were protesting and they were put down most viciously 
and aggressively by the Iranian government at the time, and 
that there was--there should have been a more significant 
American response/argument against it, then the government uses 
that against the people that are protesting and says, ``Oh, you 
are in cahoots with the Americans,'' or whatever. So there is 
some argument on both sides.
    But the protesting is ongoing now, and I think all of us, 
certainly most of us, would like to support that. But I would 
be interested, since we really have a very distinguished panel 
of experts here, as to what is the best way for us and our 
allies, the free world, to support these protesters, because as 
the President has said, his beef is with the Mullahs and this 
government which represses the Iranian people, not the Iranian 
people. We are on their side, for the people.
    So what can we do to assist them? And I will just go to Mr. 
Hadley, and we will just go down the line.
    Mr. Hadley. It is a very good question. It is tricky 
because one of the things authoritarian regimes do when there 
are demonstrations against them is to blame it on outside 
powers. And so anything we will say will be used as evidence 
that, ah ha, the Americans are behind these demonstrations, and 
to try to discredit them.
    That being said, I think the Administration is right, and 
prior administrations have tried to make it clear that we are 
on the side of the Iranian people for a government that is more 
accountable, a government that is paying attention to their 
needs, that provides better prosperity, security, and a 
brighter future for them. We ought to be very clear about that, 
and at the same time, disparaging them by saying--the 
government by saying instead of operations in Syria, Lebanon, 
Iraq, the Iranian government ought to be taking care of the 
people are home. We ought to make that very clear.
    And the third thing we ought to make clear is that--and I 
think we can, and hopefully get other countries to join us in 
this--there is no justification for a government to use lethal 
force against peaceful demonstrators. That is a general 
principle we all should subscribe with, and hopefully that will 
deter the Iranian authorities from further crackdown on their 
own people as they demonstrate against the incompetence of 
their own government.
    Mr. Chabot. Thank you very much.
    Ms. Haines.
    Ms. Haines. Thank you. I fully agree with what Mr. Hadley 
has said and would say on that last point, too, that I think 
one of the things that the Administration could usefully be 
doing now is working with other partners and allies to 
reinforce that message in order to create the deterrence on 
that point.
    I think another thing, honestly, that I believe the 
Administration could do to support the Iranian people is to 
lift the ban on visas essentially. So allowing common Iranians 
to come into the United States actually is critical for us in 
developing those relationships and in promoting and 
understanding better the Iranian people and giving them a voice 
on these issues.
    Thank you.
    Mr. Chabot. Thank you very much.
    Dr. Haass.
    Dr. Haass. Agree with both--all the statements by my two 
colleagues here. I would think that, again, we should--with an 
initiative that specifically promised sanctions relief that 
would help the Iranian people, if only their government would 
change its ways. It needs to be in public, and I think that 
would help.
    I also believe it would help if we were consistent. It 
looks too opportunistic for the United States to simply single 
out repression in Iran. Last I checked, it is going on in a lot 
of other countries around the world. There has been a 
democratic recession over the last decade and a half, and it 
would look as though--if we stand up for the Iranian people, 
and it is part of a consistent policy, it will be taken much 
more that this is not regime change by another name.
    It will look--so if we stand up and we are critical of what 
the Chinese are doing, what Russia is doing, what is happening 
in the Philippines, what has happened in Saudi Arabia, we can 
go around the world. Unfortunately, there is too many places 
these days. But if we are stand up and we make it clear that 
this is part of a larger policy, that we stand for people, for 
rights everywhere, I think that actually will be much better 
received within Iran.
    Chairman Engel. Thank you.
    Mr. Deutch.
    Mr. Deutch. Thank you, Mr. Chairman. We appreciate the 
esteemed experts being here today, but it is, Mr. Chairman, 
shameful that the Secretary of State is not sitting before us 
to answer the questions of the American people.
    This Administration may disregard Congress as a co--equal 
branch of government, and they may ignore congressional 
authority to authorize the use of military force, but I would 
remind the Secretary that we are the elected representatives of 
the American people.
    The President is giving more information to Fox News than 
to Members of Congress. But with each new piece of information, 
the story gets more and more confusing. Conflicting 
explanations from the White House, the State Department, and 
the Defense Department should give all Americans pause. Not 
pause as to whether or not Soleimani was a bad man who deserved 
his fate--of course he was and he did--but pause to question 
whether this action makes us safer today and in the long run, 
and to question whether we can believe what the President says 
in the context of our national security.
    It is beyond offensive that some, including the President 
of the United States, suggest that by asking for verification 
of intelligence after a significant military escalation, that 
somehow Members of Congress who swore an oath to this country 
are defending a man responsible for the deaths of hundreds of 
Americans.
    We have a solemn duty to know that, if we are sending 
American men and women into harm's way, we are doing so because 
it is the only way to preserve our national security. It is our 
most solemn duty as elected representatives, and I cannot 
understand why anyone is surprised that we might want to ask 
some questions when such an abrupt and escalatory action is 
taken.
    Now, my record on this committee going after Iran's malign 
activities and their support of terrorism worldwide speaks for 
itself, as does the chairman's and many others who have spent a 
decade working to prevent the Iranian regime from obtaining a 
nuclear weapon, spreading terrorism, and destabilizing an 
entire region, and violating the human rights of its own 
people.
    And our colleagues on the other side of the aisle 
understand that, and they know that, and I am sure that none of 
them would today suggest that any of us--any of us here is on 
the side of terrorists. Every one of us today is committed to 
strengthening our national security. Members of Congress know 
that, the White House knows it, and they ought to act 
accordingly, in word, in action, and on Twitter.
    Dr. Haass, as you have said, we are where we are now. 
Soleimani is dead. The House has spoken on the President's 
authority to start war with Iran. And his death doesn't change 
the fact that Iran still has ballistic missiles. It still 
supplies proxy groups with dangerous weapons. It still could 
easily restart its march to a nuclear weapon. It still cracks 
down on protesters and violates the human rights of its own 
people.
    Let's not forget that in October the ban on conventional 
weapon sales to Iran is going to expire. So in this current 
reality, in the absence of any real international coalition or 
negotiations, what immediate steps can be taken to address 
these threats? And what do we make of the Europeans' decision 
to trigger the dispute mechanism in the JCPOA to hold Iran 
accountable to its commitments? Does that present an opening to 
rebuilding its coalition?
    Dr. Haass. The news about the Europeans, sir, is very good 
news. It suggests to me that we are not alone here. Concern 
about Iran's behavior, nuclear missile, and regional, is 
widespread. The JCPOA was a collective effort, and it is not 
too late, I think, to revive multilateralism here. That is 
really serious.
    I mean, all of us have worked with the Europeans on this 
issue, and they were not dragged along kicking and screaming. 
They were, in many cases, ahead of us. So I think we have got 
real partners there on dealing with Iran, and I think there 
would be tremendous support for some type of an initiative that 
built on the JCPOA and extended some of the constraints on 
Iran, again, in exchange for a degree of sanctions relief.
    I actually think there would be a lot of openness to that 
idea. I think what we were just talking about a minute ago, 
there is tremendous concern about human rights and political 
situation in Iran. So I think we will--we will find that we are 
knocking on an open door there and some type of a collective 
effort. So I would work on that front.
    The other thing I think you heard from all three of us is 
the importance of repairing the U.S.-Iraqi relationship. I 
mean, think about it. Qasem Soleimani's principal goal was to 
drive the United States out of Iraq. Why in the world would we 
want to facilitate his success there after his death? We ought 
to make sure that does not happen.
    Steve Hadley gave, I thought, a lot of good ideas about 
ways we could signal almost to help the Iraqi government manage 
the Iraqi politics. We could also look at some creative things.
    When I was in the Pentagon years ago, when we were building 
what became Central Command, we used to look at the idea of 
presence without station. There is ways to have a regular force 
presence without necessarily having forces be permanent. This 
may help the Iraqi government manage the politics of it without 
a serious diminution of our capabilities.
    So it may be impossible to go back exactly where we were 
with Iraq, but it has got to be a strategic priority of the 
United States not to allow Iran to really make--how would I--to 
put it bluntly, to Finlandize Iraq. We ought not to let that 
happen, it need not happen, and we do not want to see groups 
like ISIS startup again, basically resume their business.
    We made so much progress in Iraq. Whatever you thought of 
the 2003 war, we made a lot of progress there. To throw it away 
over this seems to me really self-defeating and 
counterproductive. It is not too late, but we need to get on 
it.
    Mr. Deutch. Thanks, Dr. Haass.
    Thank you, Mr. Chairman.
    Chairman Engel. Thank you, Mr. Deutch.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman. Last week, universally 
respected Senator Joe Lieberman, a Democrat, provided an 
extraordinary op-ed in The Wall Street Journal, and I quote, 
``President Trump's order to take out Soleimani was morally, 
constitutionally, and strategically correct. No American can 
dispute that Soleimani created, supported, and directed a 
network of terrorist organizations that spread havoc in the 
Middle East.''
    ``In Syria, more than 500,000 Syrians have died. During the 
Iraq War, Soleimani oversaw three camps in Iran. They trained 
fighters, who have killed more than 600 American troops. The 
claim that President Trump had no authority to order this 
attack without constitutional approval is constitutionally 
untenable and practically senseless.''
    ``Authority to act quickly to eliminate a threat to the 
U.S. is inherent. Democrats should leave partisan politics at 
the water's edge and stand together against Iran and dangerous 
leaders like Soleimani.''
    And Senator Joe Lieberman--I am really grateful--he tells 
the truth. And, Mr. Hadley, I am particularly grateful that you 
actually cited the murder of Hamid, of Nawres Hamid. Mr. Hamid 
was an American, Iraqi-American contractor of Muslim faith. He 
was killed December 27, just 2 weeks ago, a Californian killed 
by the missile attacks of the militias directed by Soleimani.
    Keeping that in mind, I see positive coming, and, Mr. 
Hadley, it would be--it is encouraging to me to see that our 
appreciated European allies are changing their policies on 
sanctioning of Iranian authoritarians. What progress do you see 
in that regard?
    Mr. Hadley. It is interesting, as you point out, that the 
Europeans--that is, France, Germany, and the U.K.--indicated 
that they were going to go to the United Nations to raise the 
issue of Iraqi--of Iranian noncompliance, and potentially start 
a process that would involve the springing back of the 
sanctions that were relieved as part of the JCPOA nuclear deal.
    How far that will go we do not know. You know, the 
Europeans are trying, without joining the Administration's 
policy of maximum pressure, are nonetheless trying to preserve 
that nuclear agreement and to try to keep Iran abiding by its 
terms.
    And I think one of the dramas that this committee will want 
to keep an eye on going forward is if Iran does continue its 
gradual progression to no longer observe the limits of that 
agreement, and the time between now and when it can get the 
nuclear material necessary to make a nuclear weapon reduces 
from a year to months and maybe weeks, there will be calls for 
military action by the United States.
    There will be calls I think within Israel--and it is one of 
the issues I think that this committee needs to think about in 
advance--you are entitled to information about past actions. I 
think the committee has an opportunity to do some deliberations 
about what is the framework that should be in place in the 
event that Iran moves in that direction.
    Mr. Wilson. I appreciate raising the threats to Israel. We 
know that it is Iran that has placed tens of thousands of 
rockets with Hezbollah in Lebanon to challenge and threaten the 
people of Israel. They have placed tens of thousands of rockets 
in Gaza with Hamas to threaten the people of Israel.
    What role would Soleimani have played in supporting these 
terrorist organizations?
    Mr. Hadley. Soleimani was a government official in the 
government of Iran, that is true. He was also the mastermind of 
these terrorist militias that Iran supported. And he was behind 
the creation of Hezbollah, which was one of his great--he would 
say one of his great creations, a presence in southern Lebanon 
that poses a real danger to Lebanon--to Israel.
    So he was more than a government official. He was really 
the mastermind of one of the most successful terrorist 
operations there has ever been. And I think there is very 
little question that, as a matter of defense, he got his just 
desserts.
    Mr. Wilson. And it is inconceivable to me to hear that 
there should be an immunity for persons because they are a 
leader of the world's No. 1 sponsor of terrorism. They should 
be a target. The President acted correctly protecting American 
families, and Israeli families immediately, but Muslims first.
    Thank you.
    Chairman Engel. Thank you.
    Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman, and welcome to the 
panel. And, Dr. Haass, I am a member of the Council on Foreign 
Relations. Thank you for your wonderful work on the council.
    I must say----
    Dr. Haass. Thank you for your dues, Congressman.
    Mr. Connolly. What is that?
    Dr. Haass. Thank you for your dues.
    Mr. Connolly. Yes. Make sure I am current, will you?
    My good friend from South Carolina, if we follow his logic, 
apparently, we are going to be assassinating lots of bad people 
all over the world, because apparently that is all we need. If 
they are bad people, and they are responsible or can be tied to 
the deaths of Americans or allied citizens, it is wild west; we 
go out and kill them.
    And, by the way, without a ``howdy-do'' from Congress and 
without any kind of real coherent rationalization to Congress 
or to the American people, and the consequences be damned. 
Let's not even talk about the consequences.
    Sometimes somebody can be a bad actor that in an ideal 
world we might want to take out, but we have got to look at the 
consequences of doing so, none of which happened in this case, 
and that is why we are having this hearing. And I understand 
that in wanting to justify or defend the President's actions, 
we might get carried away a little bit.
    But I do not know, Dr. Haass, if you want to comment, but I 
am one of these people who looks at the fact that Article 1 in 
the Constitution is about the powers of Congress. And it is 
Article 1, not Article 8, for a reason. The writers of the 
Constitution, our founders, felt that the ultimate power of war 
and peace was in Congress' hands, not the Commander in Chief. 
The Commander in Chief follows only after Congress acts on the 
matters of war and peace.
    Now, in the modern world, we have abrogated that power time 
and time again, because we like having it both ways. That does 
not mean that the President gets to have unfettered power to 
make these kinds of decisions without consultation with 
Congress. Is that a fair statement, do you think, Dr. Haass?
    Dr. Haass. Let me--I will not use your words, but I am 
close to it. I think there is a fundamental difference between 
taking out a member of a terrorist organization and taking out 
an individual who is an official of a nation State who happens 
to use terrorist organizations to promote what the State sees 
as its agenda. I am not saying it is necessarily wrong. I am 
saying it is a big step. We have crossed a line there.
    So I think one thing this committee needs to think about is 
when it looks at AUMFs, none is on the books that allows us to 
do this, a best I understand. So I think it is a legitimate 
question for this committee to say, ``Do we need to think about 
an AUMF toward Iran that deals with this set of scenarios where 
Iran would use military force to promote its ends?''
    And also with the one that both Steve Hadley and I have 
talked about here, about the gathering threat on the Iranian 
nuclear side. Just say we do get intelligence that Iran is a 
week--a month away----
    Mr. Connolly. Yes. Let me just interrupt you there. I 
listened to Dr. Hadley with great interest, and I do not think 
his analysis is wrong about after the fact. But what Dr. 
Hadley, at least in this set of remarks did not mention, was, 
well, who ripped up the JCPOA? It wasn't Iran. It was President 
Donald J. Trump. And that did not make the world safer; it made 
it more dangerous.
    It meant we lost all leverage over Iran, other than 
sanctions, and they had nothing left to lose. How can we be 
surprised that they are now deciding, based on the economic 
pain they are experiencing because we reimposed sanctions, that 
they are going to use the one big lever they have got; namely, 
the nuclear development program, which is exactly the outcome I 
thought we and the Israeli government wanted to avoid.
    Dr. Haass. Well, I do not think we can be surprised. As I 
said in my statement, we practiced economic warfare. They 
cannot respond symmetrically, so they respond asymmetrically 
with the only kind of warfare they provide.
    Again, coming back to this committee, I do not think war 
power is something that solves this question. I do think the 
front door of AUMFs, or whatever range of scenarios we are 
thinking about Iran, is a subject worthy of your collective 
consideration.
    Mr. Connolly. So, Dr. Haass, final question because I am 
going to run out of time. The assertion has been made here 
multiple times that the world is a safer place without 
Soleimani in it. What about the other side of that coin, 
though? What about the fact that actually by assassinating 
Soleimani, perhaps unwittingly, we have made the world actually 
a more dangerous place, not only for Americans but for the 
region?
    Dr. Haass. Well, again, as I said, no one mourns his 
departure, but the question of whether we are safer, I myself 
have concluded that we are not, that this was not a wise course 
of action, and I thought there were better ways to restore 
deterrence as that was one of our goals, rather than opening up 
the kind of scenario I fear we may have opened up here.
    Mr. Connolly. And just in terms of timing--and then I will 
end, Mr. Chairman--while we are claiming it is a safer world 
with Soleimani not in it, we evacuated Iraq for all Americans. 
We gave a direction to all American civilians in Iraq to leave 
the country; is that correct?
    Dr. Haass. I do not know the details of the State 
Department warning, sir, so I--I just do not know the explicit 
nature of who was advised to----
    Mr. Connolly. Right after it happened, the State Department 
urged all Americans, civilians, to leave Iraq immediately, 
whether by air or by land, and put Americans in the region on 
high alert. So much for a safer world.
    I yield back.
    Chairman Engel. Thank you, Mr. Connolly.
    Mr. Perry.
    Mr. Perry. Thanks, Mr. Chairman.
    Anybody on the panel believe that Iran is seeking a 
peaceful nuclear program for which to generate power, medical 
devices, et cetera? Anybody on the panel believe that? Hello?
    Dr. Haass. I will just--if you want a verbal answer, my 
short answer is no. I think they want to keep the option of 
having a military program very much alive.
    Mr. Perry. Any reason to have a heavy water reactor and 
enriched plutonium if you are going to have a civilian nuclear 
program? Any reason at all? Yes, ma'am.
    Ms. Haines. I mean, I have the same view that Dr. Haass 
presented. I think the question is, is there a difference 
between what you are describing--in other words, a peaceful 
program, which nobody thinks that Iran is really doing this 
simply for peaceful reasons or for medical isotopes or things 
along those lines--versus a decision to actually pursue a 
nuclear weapon, which is the space that we are in right now, 
and that we have been trying to manage in effect.
    Mr. Perry. Mr. Hadley.
    Mr. Hadley. We know from intelligence that up until 2003 
Iran had a covert nuclear weapon program and a covert military-
run enrichment capability to feed that program. And that they 
gave it up in 2003 when, after the U.S. invasion in Iraq, they 
thought they were next.
    And it raises this point that Iran has responded to threats 
to the regime to change its policy. I think that is what you 
saw when they gave up their nuclear--formal nuclear weapon 
program in 2003. And I think they have continued an 
infrastructure that gives them the option, and they have kept 
that alive.
    Mr. Perry. Do any of you know what is happening regarding 
their nuclear program in the military installations and sites 
that are not inspected by any outside or international agency? 
None of you know? They could be ready right now for as much as 
you know, right? They could be ready right now. You cannot say 
they are not, right? We do not think they are, but you cannot 
say they are not.
    My point is is that they are doing this, and they are going 
to do this, and over the course of much of my lifetime we have 
sat back and watched them do this and hoped they would stop, 
right?
    I do not know if any of you have read Aleksandr 
Solzhenitsyn's warning to the West, but we do not like 
confrontation. We hope that it will just be copacetic if we 
talk to them and be nice, but they won't be nice. They are not 
going to be. They have no plans to be, and we are fools to 
believe anything other than that.
    I know my good friend from Virginia said that, ``Well, I 
guess it is a new thing for America to go around killing people 
that--terrorists, and so on and so forth, that we do not--that 
we disagree with or do not like.'' I know he is not here, but I 
am fascinated by the fact that there were 526 separate counter 
terrorism strikes under the last administration.
    You know what we heard in this committee about that, about 
the human cry? Article 1, Article 2, the Presidential powers. 
Who does he think he is? You know what we heard? We heard 
nothing. We were killing terrorists, and thank God we were 
killing terrorists.
    People in this body, people in this building, people in 
this town sent people to war knowing this guy is walking around 
conducting strikes on Americans, conducting strikes all around 
the world, killing people, innocent people, combatants, 
Americans, et cetera, and did nothing. Did nothing.
    The people in this building, the people in this town, 
should be ashamed of themselves. They should be--it is 
despicable. It is unthinkable to me. That this President 
finally did it is a ray of sunshine for the world. This guy is 
a murdering terrorist and should have been taken out.
    And what about the consequences? Everybody is saying, 
``Well, we are escalating.'' Do you folks know that in the last 
2 months, 24 separate attacks on America or America's 
interests, in November and December 2019? Wake up, everybody. 
What is it going to--what would it take? How many more lives?
    Americans had to leave Iraq because Soleimani was killed. 
Oh, well, I guess you can stay and take your chances. You can 
do that. This is absurd. This hearing is absurd. This subject 
is absurd. And, quite honestly, the comments from many of the 
people in this place have never put on the boots, carried the 
weapon, and defended their country are absurd. We have put 
people's lives at risk knowing full well that they should not 
be there because we did not give a damn to do the right thing 
to protect them.
    I yield back.
    Chairman Engel. Ms. Bass.
    Ms. Bass. Thank you very much, Mr. Chair.
    I wanted to focus my questions actually on our relationship 
with Iraq and wanting--Mr. Haass, you were--Dr. Haass, you did 
begin to respond to that, and I wanted to ask the other 
witnesses if they would as well. Given what has happened, what 
is our current state of our relationship with Iraq?
    Ms. Haines. Sure. I mean, I can only respond, obviously, 
based on the information that I see in the news, and it--
clearly, the strike had an enormous impact on our relationship 
with Iraq. Iraq has come out and indicated that they did not 
provide consent for this particular strike on their territory.
    And it has brought the parliament to the point where they 
have actually passed a vote calling for the U.S. forces to 
leave, and we have seen that the Prime Minister has indicated 
that in fact they want a delegation to talk about leaving Iraq.
    And I think, you know, as Dr. Haass noted, this is in many 
respects exactly what Soleimani had wanted. And as a 
consequence, we are now in a position where I think it will be 
likely that it is unsustainable for us to have the presence 
that we have had.
    I hope that is not true. I hope that we can, in fact, get 
through this period with them and that their domestic politics 
do not erupt in such a way that it makes it impossible for us 
to stay.
    Ms. Bass. And I would like to ask your thoughts, you know, 
Mr. Hadley, on what it would mean if we left. You know, when I 
saw the protest and the attack on our embassy, I was really 
shocked. I have been there, been to the Green Zone. As a matter 
of fact, I went with my colleague on the other side of the 
aisle, Mr. Chabot.
    And knowing how fortified that area was, to see it 
penetrated the way it was, it certainly left me feeling like 
the Iraqi military just basically said, ``Have at it.'' I mean, 
I do not see how that could have happened without it. And so 
why did they do that? And what are the implications if our 
troops were forced out?
    Mr. Hadley. As I have tried to indicate in my testimony, I 
think it would be a disaster for Iraq, a disaster for the 
United States. For the Iraqis, it would undermine their 
sovereignty, compromise their ability to deal with ISIS, and 
open the door to even more Iranian influence.
    I am not pessimistic about this. I think it is a political 
problem for the government. In that parliamentary vote, all of 
the--as I understand it, all of the Sunni and Kurdish 
representatives stayed away, clearly do not want to see U.S. 
forces pulled out.
    There are demonstrations returning in Iraq today, Shia on 
the street, and they are now focused once again on Iranian 
influence. So I think if we can buy some time, if we can make 
the kind of statements that will help Prime Minister Abdul-
Mahdi deal with the problem politically, the domestic political 
problem that he has, and start a process of consultation, we 
can talk about what is the proper mission, configuration, and 
role of U.S. forces now that ISIS has been forced out, and yet 
is also organizing to return.
    I think we can change the mission configuration of the 
forces, make sure we are partnering closely with the Iraqis, 
and keep a significant force there. I think it is in the 
interest of the United States and the interest of Iraq.
    Ms. Bass. So, Dr. Haass, thinking about ISIS, thinking 
about what happened in Iraq, and then also Syria, and the fact 
that we pulled out of Syria, and I do not know the status of 
the ISIS soldiers that were in prison. And given Iraq and 
Syria, what are your thoughts about a resurgence of ISIS?
    Dr. Haass. Well, I think it is highly likely that there 
will be a resurgence. Turkey is not--whatever else Turkey is, 
it is not a full partner in this effort. It is not a priority 
in some cases for the government. Also, a lot of these people 
in Syria, unlike Iraq, came from around the world. Iraqis were, 
in many cases, much more local.
    So I assume, to some extent, there is a real danger of 
reconstitution. Will it go back to the way it was? Hopefully 
not. You know, a lot of things have to happen.
    Ms. Bass. Well, what about some of those soldiers going 
back to Europe?
    Dr. Haass. Again, I think that in large part depends upon 
Turkey's behavior. Turkey has often used the flows in both 
directions as a source of leverage--you know that--both 
recruits coming to the region and people coming back. But you 
have to assume that a certain number will get back to Europe.
    This is I think a permanent challenge, to put it bluntly, 
for European security. I do not see it ever disappearing.
    Ms. Bass. Thank you.
    I yield back.
    Chairman Engel. Thank you.
    Mr. Yoho.
    Mr. Yoho. Thank you, Mr. Chairman. I appreciate you holding 
this hearing.
    I just want to bring us back to the title of this hearing, 
``From Sanctions to the Soleimani Strike to Escalation: 
Evaluating the Administration's Iran Policy.'' I read here 
about Soleimani, some of the facts you were asked about him, 
and I think most of these are already known. He was Iran's top 
and most powerful general. He joined the Revolutionary Guard in 
1979 during the Iranian hostage crisis, which I remember very 
well.
    He rose to their top leader quickly, commander of Iran's 
Quds Force, the elite unit responsible for Revolution Guard's 
foreign operations. He also considered--was considered a 
nemesis to the U.S. and the Middle East with American officials 
blaming him for the deaths and maiming of thousands of American 
soldiers and the regional allies.
    David Petraeus, the former commander of the U.S. force in 
Iraq, described him as a truly evil figure.
    Before his death, Soleimani was called a living martyr by 
the--of the revolution by Iran's supreme leader, Ayatollah Ali 
Khamenei. So he was already considered a martyr for the cause. 
We just sent him to his rightful place.
    He did occasionally interfere in Iran's domestic policy. 
Dr. Haass, you talked about, you know, how Iran--the citizens 
rose up in 2009. Let me tell you about this guy. In July 1999, 
Soleimani cosigned a letter warning president-then Mohammad 
Khatami that the Revolutionary Guard would put down large 
student protests if he did not.
    He was a bad player. I mean, nobody is disputing that.
    I want to pivot over to the JCPOA. You know, we were here 
when that was negotiated, and I remember very clearly John 
Kerry saying, ``No deal is better than a bad deal.'' That was a 
terrible deal, and I applaud Donald Trump for pulling out of 
that.
    How binding was the JCPOA, in your opinion?
    Dr. Haass. Well, it was binding because the President of 
the United States entered into it. We entered into it not 
unilaterally but with our allies. So I----
    Mr. Yoho. Was it signed by anybody?
    Dr. Haass. Physically signed, you know, it was signed 
certainly by the Secretary of State. So he--and, you know, he 
represents the United States. And Congress I think is a large--
--
    Mr. Yoho. It was never voted on. So if I do not sign an 
agreement to buy a house or a car, if I do not sign the 
contract----
    Dr. Haass. That fact is----
    Mr. Yoho [continuing]. It is not binding.
    Dr. Haass. I disagree with you, sir. When the Secretary of 
State of the United States, speaking for the President, enters 
into an international agreement, like it or not, that 
represents--that is speaking for the United States.
    Mr. Yoho. Did our Senate sign it? Pass it?
    Dr. Haass. We enter into all sorts of international 
arrangements that are not passed under the treaty procedures of 
the Constitution, and in many cases they are not voted on. That 
is a legitimate question about whether we have moved away from 
the two branches working together in terms of international 
agreements.
    Mr. Yoho. I have got to take my time back. You know, it was 
a bad--it was a bad deal, and President Trump did well. The 
release of the money--John Kerry sat here and we said, ``Was 
that money going to go into the hands of terrorist groups?''
    And he said, ``More than likely, yes, it would.'' He sat 
right here and said that, and I think we can speak loudly today 
and we can see the results of that.
    We are talking a lot about imminent threat. Imminent 
threat, is it Iran capturing our Navy personnel in January 
2016? Was that an imminent threat? Is it the attacks on the oil 
tankers in the Straits of Hormuz? Is that an imminent threat? 
What about Hezbollah and the Houthi rebels taking out the Saudi 
petroleum pipelines or firing at U.S. naval ships? What about 
the killing of U.S. citizens and injuring four other service 
members?
    When is an imminent threat imminent? Do we wait for the 
next one and say, ``Golly, maybe the next one will be 
imminent.'' President Trump did the right thing.
    And the other thing we do not talk about is the other 
terrorist that got taken out, Mahdi al-Muhandis. You know, he 
orchestrated attacks on U.S. and French embassies in 1993. It 
is time that somebody takes these people out.
    Go back to Bill Clinton. If you read the book Dereliction 
of Duty by Robert Patterson, he was offered Osama bin Laden 
over 10 times. He refused to either capture or to eliminate 
him.
    The question is: would 9/11 happen had Bill Clinton done 
his job? What would happen if President Trump had not done 
this? What would have happened if George Bush or President 
Obama would have removed Soleimani or Muhandis when they had 
the opportunity? Would we have had our servicemen and women 
killed or maimed?
    And so this question about, was this the right thing or 
not, leadership is tough. Harry Truman said, ``If you can't 
stand the smoke, get out of the kitchen.'' President Trump did 
what he had to do, and this country is safer for it, and I 
think the world is safer. And they are going to look at America 
and said, ``Thank you for your leadership.''
    I yield back.
    Chairman Engel. Thank you.
    Mr. Keating.
    Mr. Keating. Thank you. The people that I represent in 
discussions, they have got one question. Are we less safe now 
than we were before? And I think this is an important hearing 
because I think the answer to that question is much more 
fundamental than just dealing in the prism of the killing of 
Soleimani.
    Are we safer with this maximum pressure campaign that we 
have? And that campaign to date has not been successful. I 
think that is clear. And part of the reason, maybe the major 
reason, there is no diplomatic arm attached to that. There is 
no intermediaries there.
    The idea is, beat them to submission and capitulation and 
then dictate the response of any negotiations. That is 
perceived no other way by the Iranians than a regime change.
    Are we safer with the resultant effects on our military, we 
move more and deploy more troops to that region, away from 
other areas, away from dealing with the threat of ISIS? Are we 
safer as we move our limited naval assets through that region, 
taking them away from South China Sea and the other parts of 
the world?
    And, importantly, are we safer with this go-it-alone 
strategy that we have? You know, and that is just not a minor 
thing. That is something we have that our enemies do not have--
a historic coalition with our allies. That is a huge difference 
maker, maybe the biggest I believe.
    And what has happened here? We do not give them notice, and 
that is just not about the killing of Soleimani. That is about 
the troop withdrawal in Syria where our allies had troops on 
the ground, uniformed, until according to a hearing we had 
recently maybe hours that they were--we were going to pull out 
of there.
    The IMF Treaty, our delay in Ukraine in terms of military 
assets there, the Qatar Gulf Crisis, the TPP, you can go on and 
on. We are just not consulting with our coalition. We are 
turning our back, making unilateral actions, and then saying, 
``You better get in line.'' We are not safer because of that.
    We pulled out of the JCPOA unilaterally. And then, using 
our own economic powers, are putting pressure on our own allies 
to get out themselves instead of talking with them in an 
agreement that we joined in together.
    So if we are going to have an answer to are we less safe 
now, I am glad we are talking about these fundamental issues 
and not getting caught up in an incident-by-incident cycle of 
escalation where there is a shoot-from-the-hip kind of action, 
then there is a policy kind of filler after that, telling 
everyone in Congress, everyone in America, everyone that is our 
allies, ``Well, you better get in line with us after we do 
it.'' And have a cycle of escalation and having that danger 
where the only alternative we are leaving ourselves is 
militarily.
    Can you talk about the bigger picture here and how these 
actions make us less safe, give us less alternatives going 
forward? And this is--we just cannot continue an action where 
we are dealing with individual incidents. We have got to take 
this further.
    Dr. Haass. Is that any particular one of us, or all----
    Mr. Keating. I want you to jump in. Go ahead.
    Dr. Haass. I will just make a very short comment. Look, I 
think one of the structural and strategic advantages this 
country enjoys--and it has been one of the reasons we have been 
as successful as we have been now since World War II or even 
going back to World War II, is our network of alliances.
    Unlike China, unlike Russia, Soviet Union, except when it 
had--could coerce alliances, we have real allies, and that 
allows us to leverage our capabilities. And it worked 
tremendously in the Gulf War, but it has helped keep the peace 
in Asia, and, obviously, in Europe.
    So it is demonstrated to be effective, and I think we ought 
to revive it wherever we can in dealing with the issues we are 
talking about here today.
    I also think--this is an aside--it is not the subject of 
today, but the only way we can begin to deal with global 
challenges is collectively. The very nature of these challenges 
does not allow any country on its own to effectively contend 
with them. So I do not think you will get a lot of argument 
about the structural advantage and the case, if you will, for 
collective action.
    Mr. Hadley. My understanding is from Brian Hook, who I am 
sure has testified before this committee, that in the opening 
days of the administration they had the view that the nuclear 
agreement was inadequate because it did not close the door on 
Iran getting a nuclear weapon.
    And the prior administration had not addressed ballistic 
missiles or Iranian activity in the region, that Brian was 
designated to try to work with the European allies to come up 
with a common approach to address those three things and was 
unable to do so.
    The administration then has adopted a strategy to try to 
address these issues. We do not know whether it is going to 
work at this point. We are in mid-course. My understanding is 
they can continue to talk to our European allies about these 
issues, and particularly about the nuclear issues. And if we 
get a negotiation started, which I think is the thing we need 
to do to keep this from escalating further----
    Mr. Keating. My time is--if I could, Mr. Chairman, have 20 
seconds, I want to say this. I was asked by this administration 
to get involved when we were discussing this with our European 
allies to see if we can get them on board.
    You know, I have been talking to our allies personally, and 
the chances of them walking away from this was zero. And when I 
told them that, you know what their response was? I said, 
``What is your contingent plan then if''--and they said, 
``Well, we are working on it.'' That is the problem. ``Well, we 
are working on it.'' They act impulsively, and then, ``Well, we 
are working on it.'' That is the point.
    It is well and good to say we had the discussions. Believe 
me, I was privy to a lot of that.
    I yield back.
    Chairman Engel. Thank you.
    Mr. Kinzinger.
    Mr. Kinzinger. Thank you, Mr. Chairman. Thank you all for 
being here. Just a couple points on the ballistic missile 
issue, I remember somebody testifying and I asked them if--with 
this nuclear deal, if they included ballistic missiles or tried 
in that, and they said, ``Well, we did at the beginning, but we 
knew Iran would never agree, so we dropped it.''
    It was like, ``OK. Well, that is a problem there.''
    So a couple of points. You know, I hear a lot about the 
safer question and it makes for good headlines. I want to say 
first off, for the military, their job--the military's prime 
job is not to be safe. It is to keep the American people safe. 
And so the military, as an end state, and if the end state is 
avoid using the military, we do not necessarily need one at 
that point, except for a defense force. Their job is to keep us 
safe, and so that gets thrown around a lot.
    But I have been clear and consistent ever since I have been 
in Congress. So I supported the Administration going to Libya, 
and I said that that was not something that needed to come to 
Congress. I cannot say that for everybody and hear that they 
were consistent on both sides on all of that either.
    But I think what is clear--and I would love if, in every 
one of these strikes that the Administration would come to 
Congress and we could have a debate without of course it being 
open and revealing plans and opportunities.
    But what is clear is when this strike happened, on day one, 
on moment one, the second this news came out, I had many of my 
friends on the other side of the aisle that immediately opposed 
what happened. And I dare say that a lot of people that were 
out making comments probably did not even know Mr. Soleimani's 
name until he was killed.
    And so look at what that kind of knee jerk reaction is, and 
then the follow-on of this is going to escalate into World War 
III, we heard that on more than one occasion. So, obviously, 
there is no World War III right now.
    And I want to look at the history of how we got to this 
point anyway. So the other thing people say is, ``Well, now 
they are going to attack through the proxies.''
    I ask, what is new? I will tell you, in 2008 and 2009, I 
was in Iraq. I flew ISR. We operated against both, obviously, 
insurgents in Iraq but also against Iranian influence in Iraq. 
Many of my colleagues here did the same thing. They killed 
600--estimates 4-to 600 of my fellow men and women in uniform. 
They have been using their proxies ever since.
    I remember under the prior administration, when we were 
talking about the ISIS fighter, the concern was when ISIS was 
defeated that the Iranian proxies would turn against the 
American presence in Iraq. So this is not a new response.
    And so what I would argue is if you look over the years of 
history of Iran, and specifically the years of history of 
Soleimani, it was nothing but attacks and provocations against 
the United States of America.
    In fact, many of us on both sides of this aisle were 
actually upset with the Administration for not responding to 
its--they say ``drone attack.'' It is the equivalent of the 
economic damage of destroying 10 F-16s, by the way, because of 
the cost.
    Many of us were upset with the administration's lack of 
response against the attack on the Saudi oilfields. And then 
when the response finally comes, finally, the first time the 
United States has taken kinetic military action against Iran in 
response to the many provocations from Iran, they target the 
one man that is responsible for these provocations and not 100 
people that are working a few surface-to-air missile sites 
because it would not be escalatory.
    And then the response was, ``We are escalating.'' And then 
we see this unfortunate tragic shootdown of the Ukrainian 
airliner, and many of my colleagues here started claiming it 
was a response because of the United States' escalation. They, 
in essence, blame the shootdown of the airliner--yes, the 
Iranians--but we would not be here if it was not for the United 
States.
    And I would remind you that when we killed Soleimani, the 
Iranians chose to escalate by attacking our bases in Iraq. And 
in full expectation of a response by the U.S. President, they 
had their air defense systems on high alert, and that is when 
that happened.
    Did that response ever come from the United States? No. The 
President showed great resolve and great restraint to not 
respond. I do not know if I would have made the same decision, 
but I think he made the right decision.
    So we hear a lot about impulsive actions and without 
thinking things through.
    And then just briefly on the JCPOA. I am not going to get 
into the argument of whether billions of dollars was given to 
Iran or whether it was their assets. It is nuance. It is 
whatever. Okay? That is academic arguments.
    But what I do know is prior to the JCPOA Iran was a player 
in the region, but not a huge one. I know that on the heels of 
signing the JCPOA, the government--the legitimate government in 
Yemen was overthrown and a civil war was started there by 
Iranian proxies.
    By the way, they have sent not one dollar of humanitarian 
aid to Yemen. I know that Syria, the presence of Iranians in 
Syria, showed up immediately after the JCPOA. Maybe it was the 
money. Maybe it was because they felt untouchable.
    But when you look at regional behavior, that is essential 
to curtail. And I would argue that the destruction and the 
killing of Soleimani, all the doomsday scenarios that my 
friends have predicted, have not come true yet. They may, but 
that is not going to be a result of the United States. It is 
going to be a result of the decisions and behavior by Iran and 
the region.
    I had questions, but I do not have time for them. So with 
that, I thank all the witnesses for being here and spending the 
time today and your expertise. And, Mr. Chairman, I will yield 
back.
    Chairman Engel. Thank you very much.
    Mr. Bera.
    Mr. Bera. Thank you, Mr. Chairman, and thank you to the 
witnesses for your years of service to our country.
    I would like to first start by acknowledging the loss of 
Nawres Hamid, who was a resident of Sacramento County, the area 
that I represent, the American contractor, and our hearts go 
out to his family. And, it is important for us, as the United 
States of America, to protect our citizens, our men and women 
that are around the world.
    With that, it is unfortunate that we are seeing such 
partisan dialog here. I mean, none of us thinks Soleimani was a 
good guy. All of us agree that he supported proxies that had 
the specific intent of disrupting the Middle East and moving us 
away.
    I think the frustration that many of us have--and I would 
hope folks on the Republican side of the aisle feel the same 
way--is the decisionmaking process. We have had a joint 
decisionmaking process that has served our country well, that 
has been methodical.
    I think, Mr. Hadley, you and I have chatted about that 
decisionmaking process, where you do bring in dissenting 
opinions, you do--unless there is that imminent threat, and 
thus far the Administration has not been able to explain to us 
what the imminent threat was, and, in fact, it does not appear 
that there was at this particular moment in time, et cetera, 
that they had to act spontaneously.
    It serves our country to actually go through that 
methodical process and understand the consequences of our 
actions. We may still take those actions, but if the 
Administration and Congress are on the same page, it does 
project strength as opposed to the lack of strength and 
cohesion.
    And I think that is what has many of us on the Democratic 
side--and, again, I would hope the Republican side--frustrated 
with this Administration.
    Maybe, Ms. Haines or Mr. Hadley, both the Bush 
Administration and the Obama Administration had discussions 
about removing Mr. Soleimani and came to a different 
discussion. Was there a joint decisionmaking process that took 
place in both the Administrations that you can talk about?
    They weighed the consequences of these actions; is that 
correct? And came to a different conclusion?
    Mr. Hadley. Congressman, that is a good question, and I am 
going to answer on the basis of my own imperfect recollection. 
And some of my colleagues may have a different view.
    I do not remember the issue of taking out Soleimani coming 
to the formal NSC process. I know that General Stan McChrystal, 
in the winter issue of Foreign Policy, has said that in January 
2007 he was monitoring a convoy in which he believed Soleimani 
was present, and he contemplated taking him out at that point 
in time, decided not to do so.
    Again, my colleagues may disagree; I am not aware that that 
had came to the White House either before, during, or after 
that decision. It was an operational decision.
    So we did not have, so far as I can recall, formal 
consideration.
    Mr. Bera. And, Ms. Haines, what about the Obama 
Administration?
    Ms. Haines. Yes. Thank you, Congressman. In the Obama 
Administration--and, again, also with my personal 
recollection--there was not a particular decision teed up in 
the formal process, whether we should take action or not in a 
particular scenario.
    But, certainly, the question of Soleimani was much 
discussed, and the IRGC was much discussed, and so on. And I 
think, in general, the consequences of an action like that, as 
you say, would have to go through an enormous process, and 
certainly was one that we were thinking through, like what are 
the pros and cons?
    I think the fact that, you know, you have the ability to do 
it is not enough. I think the question is whether or not it 
actually is a wise decision.
    Mr. Bera. And if I just play off of that, had the 
Iranians--had their ballistic missiles landed and killed 
multiple American troops, we would have been compelled to have 
to counter response; is that----
    Ms. Haines. Absolutely.
    Mr. Bera. And there was that possibility of an Iranian 
counter response. So while I am happy we find ourselves in a 
place where dialog is possible, and de-escalation is possible, 
it was entirely possible a different outcome could have 
happened here.
    And many of us, as we saw the missiles in the air, and the 
tapes of these missiles, you know, were waiting to understand 
what actually happened. And I think many of us--and the 
American people--were concerned that we were about to go into 
another war. Is that an accurate--is that how you felt as you 
were watching the----
    Ms. Haines. Yes, absolutely. I mean, I think the point is, 
I do not think any of us question whether or not a response is 
appropriate. I think the question is: how do you design the 
response to be best fit within the strategy that you are 
dealing with and to keep the American people safe more 
generally? And that is the question that I suspect many people 
have concern about with respect to this strike.
    Mr. Bera. And again, just as a final statement, our country 
is better served when the Administration and Congress are 
working together, having dialog, even if we disagree. We can 
disagree behind closed doors in confidence. But when we step 
out there, especially if we are on a path to war, 
confrontation, we are better served if we are working together 
and there is dialog between the Administration and Congress. 
And that did not happen in this particular case.
    Ms. Haines. I fully agree.
    Chairman Engel. Thank you.
    Mr. Zeldin.
    Mr. Zeldin. Thank you, Mr. Chair. First off, it is 
important that the decision--to note that the decision to 
strike Qasem Soleimani was a product of a joint decisionmaking 
process.
    First off, I want to thank all of the witnesses who are 
here. We have a lot of service-represented national security 
advisors, CIA, and State, and I just want to thank all of you 
for your distinguished service to our country.
    The intelligence community, DoD, State Department, all 
concluded there was an imminent threat. Do any of the witnesses 
here dispute the conclusions of all of these different 
agencies?
    Dr. Haass. Two things, sir. I have----
    Mr. Hadley. I do not.
    Dr. Haass. I have not seen a clear case that there was an 
imminent threat, and I am not seeing clear evidence that 
everyone agrees there was an imminent threat. So I will just 
say that. I have not seen anything that would allow me to judge 
that there was.
    Mr. Zeldin. So you are disputing the positions of Intel, 
DoD, and State?
    Dr. Haass. The short answer is I have not seen evidence 
published. I cannot confirm it. I cannot support it because I 
have not seen the evidence.
    Mr. Zeldin. OK. Have you seen the IRGC statement that was 
put out after the killing of Qasem Soleimani?
    Ms. Haines. I am not sure which one you are referring to.
    Mr. Zeldin. There was a statement the IRGC put out right 
after the killing of Soleimani. Does anybody speak Farsi? I do 
not. I just did not know the answer to that question.
    So the IRGC did put out a statement. I request unanimous 
consent to offer it into the record. Mr. Chair?
    Chairman Engel. Yes. Without objection.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T8916.004
    
    [GRAPHIC] [TIFF OMITTED] T8916.005
    
    Mr. Zeldin. The IRGC's statement--and I mentioned this on 
the floor during debate last week, as well as through social 
media and other interviews--but most importantly on the floor, 
and I am going to do it again during this hearing--the IRGC's 
statement after the killing of Qasem Soleimani says that 
Soleimani was in Iraq when he was killed to confront Americans.
    So for anyone who has the position that there is not a 
shred of evidence that there was an imminent threat, let's 
start off with the IRGC's own words of why Qasem Soleimani was 
in Iraq. In the IRGC's words, he was there for a confrontation 
with Americans.
    Open sourced information is enough to determine that it was 
legitimate to take out Qasem Soleimani, a designated terrorist 
who is running a designated terrorist organization, who is 
being sanctioned by the United States, the EU, the United 
Nations. He had already killed over 600 U.S. troops. He had 
wounded thousands more.
    We had just had the embassy attack right before that 
strike. We just had the killing and wounding of Americans, just 
before that strike.
    In my opinion, when I hear someone of my colleagues, 
including the speaker, say that it was disproportionate to take 
out Qasem Soleimani, I ask the question: at what point is it 
proportionate? How many more Americans would have to be killed 
in order for it to be proportionate? How many thousands of more 
troops would have to be wounded in order for it to be 
proportionate?
    And I would also note, in correcting the record--I mean, I 
do not know if anyone has an answer. I mean, we could call it a 
rhetorical question. But at what point would--I do not know if 
any--do any of you have the position that it was 
disproportionate?
    Ms. Haines. I think there are a number of things that you 
just said. One is, just to be clear, because I think sometimes 
this gets said publicly, the fact that you are a designated 
terrorist for purposes of sanctions does not provide authority 
to take action, lethal action certainly, against that 
individual.
    There is sort of a domestic legal analysis and then an 
international legal analysis that has to occur. And, obviously, 
as a Member of Congress, you also get concerned about whether 
or not Congress needed to have authorized the action, 
essentially, and----
    Mr. Zeldin. Well, I have a limited amount of time, so let 
me ask you a followup question on that. Did President Obama 
have the authority to conduct the drone strikes in 2011 in 
Libya targeting Qaddafi?
    Ms. Haines. Yes. The Department of Justice has, over the 
years, essentially concluded that the President has the 
authority and the power to take action under the Constitution, 
where there is an important national interest to protect for 
the United States, without congressional authorization, but you 
provide a war powers report. If you remain in hostilities for 
60 days, then essentially Congress has to authorize it or you 
bring your forces home.
    Mr. Zeldin. I appreciate that. It is also important to note 
that President Obama is--the Obama Administration, their legal 
justification was under the AUMF.
    Ms. Haines. No.
    Mr. Zeldin. Ma'am, I am sure that--I mean, we are not going 
to--I have a limited amount of time, but I will be happy to 
talk to you offline or show you any products that were put out 
by the Administration.
    With my limited time, I just want to say to the Iranian 
protesters who are out there right now, who want prosperity, 
stability, freedom, they want a better way of life, there are 
many here who are watching in the U.S. Congress, in the United 
States, you know, wishing them the best, wanting a better 
future with vision and hopes for their nation.
    So for all of those Iranian protesters who are out there 
right now in search of a better future, we are watching, we are 
praying, and wish it works out in the best for you, and want to 
be supportive however is appropriate.
    I yield back.
    Chairman Engel. Thank you.
    Mr. Espaillat.
    Mr. Espaillat. Thank you, Mr. Chairman.
    Thank you, witnesses, for being here.
    Mr. Chairman, I first want to express my disappointment 
that Secretary of State Mike Pompeo is now here today to answer 
substantive questions that we have regarding this particular 
issue. He is here where he comes every year for budget issues, 
as I am sure he will be coming around in a couple of months, 
and we have been very supportive of increasing the budget for 
the State Department.
    In fact, while facing dramatic cuts, we had a bipartisan 
effort to ensure that the State Department continues to be 
funded robustly. And so I am disappointed that he is not here 
to answer any questions.
    But I want to say that, although I was not here when the 
JCPOA was adopted, I recognize that in fact it was not fully--a 
fully strong document, but it was a good beginning. It 
certainly did not have anything regarding fighting, ensuring 
that Iran funds some bad actors in the world or that it steps 
away from its interballistic missile program, but it was a 
start.
    And what I hear from the inspectors is that, in fact, they 
complied with most of the provisions of that, if not all of the 
provisions, of that agreement.
    So my question is to you individually, and this is a yes or 
no answer question, is whether or not you feel that you have 
gathered enough information or evidence that--from the 
inspectors or otherwise, that you feel that Iran complied with 
the provisions established by the JCPOA.
    Mr. Haass, do you feel that they comply? Yes or no.
    Dr. Haass. Based on everything I have read, the 
international inspectors made the case that Iran was in 
compliance.
    Mr. Espaillat. Ms. Haines.
    Ms. Haines. Yes. Same.
    Mr. Espaillat. Mr. Hadley.
    Mr. Hadley. So far as I know, yes.
    Mr. Espaillat. OK. So do you feel that the region now, our 
allies in the region, are safer now today than they were after 
the signing of the agreement?
    Mr. Haass.
    Dr. Haass. Whether our allies are safer than they were?
    Mr. Espaillat. The region and our allies in the region, 
yes, Israel, other allies that we have in the region, and the 
region itself; is it safer now than it was after the signing of 
the agreement?
    Dr. Haass. In terms of the nuclear threat from Iran?
    Mr. Espaillat. In general. Including the nuclear threat.
    Dr. Haass. In general, I would say the region has continued 
to deteriorate. So I think most of the countries and people of 
the Middle East are less safe than they were 5 years ago for a 
host of reasons.
    Mr. Espaillat. OK. Ms. Haines.
    Ms. Haines. Yes. I have nothing to add.
    Mr. Espaillat. Mr. Hadley.
    Mr. Hadley. They are less safe, overwhelmingly, because of 
Iran's destabilizing activities.
    Mr. Espaillat. Well, do you think that the deterioration or 
the destabilization of Iran to some degree had some connection 
with this Administration ripping up the agreement, the JCPOA?
    Mr. Hadley. No. I think as--as I think one of the members 
said, their destabilizing activities were ongoing before the 
JCPOA and, if anything, they stepped up after the JCPOA, long 
before President Trump decided to withdraw in 2018.
    Mr. Espaillat. Let me just say that I also think that, in 
fact, it was a good start. I am not arguing that things could 
have not gotten better, including that aspect of our 
discussion, but it was a great start. And to rip it up and sort 
of like go to ground zero and start again--and throwing our 
allies under the bus, we assembled one of the most impressive 
coalitions of foreign governments to fully back this agreement, 
and we walked out on them, and we threw them under the bus. I 
do not think that we are going to be able to assemble them 
again for any significant operation.
    Do you think that we can assemble them again, Mr. Haass?
    Dr. Haass. I think so and I hope so. I am not nearly as 
pessimistic as you there and, again, today's report suggests 
that the allies are not walking away from the need to work 
together to contend with the----
    Let me say in 30 seconds very quickly, Congressman, I think 
it is possible to have doubts about the JCPOA, to see it in 
some way as flawed, at the same time to be critical of the 
administration for having exited it unilaterally.
    I think it is possible to manage both thoughts 
simultaneously.
    Mr. Espaillat. Ms. Haines.
    Ms. Haines. Thank you.
    I think the one thing that I would like to add is that I am 
aware of a moment of disagreement with Mr. Hadley. I really do 
believe that Iran's destabilizing activities increased 
measurably after President Trump withdrew from the agreement 
and began to exercise his maximum pressure campaign and, 
largely, because there really was not that diplomatic offramp 
and this was a way for Iran to respond.
    Mr. Espaillat. Thank you, Mr. Chairman. I just want to 
conclude my statement.
    I am cautiously optimistic. Thank you.
    Chairman Engel. Thank you, Mr. Espaillat.
    Mr. Mast.
    Mr. Mast. Thank you, Mr. Chairman.
    I think there has been three fundamental questions that 
have been posed by many on both sides on the panel and that was 
was it wise, was it imminent, and was it a choice.
    And I want to talk about all those three things maybe in a 
euphemism or a comparison. I look at Soleimani as a terrorist 
nest--as a terrorist machine gun nest, really.
    He has been spraying rounds at the U.S. for many years on 
many different fronts. So if I look at him like a terrorist 
machine gun nest and I ask myself, No. 1, is it a choice to 
take that nest out.
    This is something I have very specific experience with on 
the theaters of war and on our battlefields. Yes, it is a 
choice to take that out all day long.
    But it is not really a choice when you consider that if you 
leave that there, walk around it, ignore it that somebody else 
is going to come across that nest eventually and they are going 
to get shot at.
    You want to ask is it wise. Well, I think it probably 
always defies conventional wisdom to go out there and attack a 
machine gun nest. But that does not mean that it does not have 
to be done.
    And then you want to ask is it imminent. Well, just because 
this machine gun nest might be taking a moment to reload that 
does not mean that it's not an imminent threat.
    It just got done firing rounds over at our embassy. Over 
the last number of years they have been working to attack our 
service members time and time again.
    Just because it was taking a breather to reload that did 
not mean it was not an imminent threat because it was not 
literally pushing the button on something.
    Now I want to question--ask a question. Some people might 
call this rhetorical but I am not going to ask it as 
rhetorical.
    There is a number of my colleagues still remaining here. I 
am more than willing to yield to any of my colleagues that want 
to answer this question.
    If you walk out this hallway and you take a right and 
another right and another right, you are going to come to 
several beautiful walls that have the names of our fallen 
service members from the war on terror.
    And I would ask can any of you provide me one name on that 
wall that does not justify killing Soleimani?
    I got 2 minutes and 30 seconds. I will be more than happy 
to sit here and wait. Somebody provide me with a name on that 
wall that does not justify his killing.
    [Pause.]
    Chairman Engel. The gentleman may continue.
    Mr. Mast. I am continuing, Mr. Chairman. I got 2 minutes 
remaining. I will sit here and wait for somebody to provide me 
with a name on that wall that does not justify the killing of 
Soleimani.
    [Pause.]
    Chairman Engel. Thank you, Mr. Mast. I think you have made 
your point.
    Mr. Phillips.
    Mr. Mast. Mr. Chairman, I have not yielded back my time and 
I still have a minute and 45 seconds remaining.
    Chairman Engel. You are disrupting--you are disrupting the 
procedures right now.
    Mr. Mast. I will not yield back my time, Mr. Chairman.
    Chairman Engel. You are disrupting the procedures, Mr. 
Mast.
    Mr. Mast. I have a minute and 45 seconds remaining of which 
I would like to wait for somebody to provide me with a name of 
somebody on our Memorial Wall----
    Chairman Engel. I think you have--I think you have made 
your point.
    Mr. Mast [continuing]. Who does not justify the killing----
    Chairman Engel. You are out of order, Mr. Mast.
    Mr. Mast [continuing]. Of Soleimani.
    Chairman Engel. You are out of order. You are out of order, 
Mr. Mast. You have made your point.
    Mr. Mast. I will not yield back my time. I will not yield 
back my time. I am not out of order. You are out of order, Mr. 
Chairman, for reclaiming this time.
    Mr. Phillips. Mr. Chair? Mr. Chair?
    Mr. Chair, I will yield a minute--Mr. Chair, I will yield a 
minute of my time to Mr. Mast.
    Chairman Engel. Well, he has got time.
    Mr. Mast. Thank you. Thank you, my colleague. I appreciate 
it.
    [Pause.]
    Mr. Phillips. Mr. Chair, if I might begin.
    Mr. Mast. Thank you for yielding me your time, although I 
did not yield my time back. I thank you.
    I will note that there was no response of one name offered 
that did not justify the killing of Soleimani.
    Mr. Phillips. Thank you, Mr. Chair.
    And thank you, Mr. Mast. I am grateful that you took that 
time because you humanize an issue that all too often is not, 
and having just returned from the Arabian Gulf visiting bases 
with many of my colleagues sitting in here right now--Mr. 
Zeldin, Mr. Fitzpatrick, Mr. Cicilline--I come to you and to 
this hearing with everybody with whom we met on those bases on 
my mind.
    I want to start by echoing my colleague's disappointment in 
the fact that Secretary Pompeo chose not to come today. I say 
that not politically but from a governance perspective.
    And I have appreciated today's debate and conversation. I 
think good arguments have been made on both sides. But I do not 
want to cover the same ground. I want to talk about something 
that I think we have to and that is our authorizations--our 
AUMFs.
    We, of course, have two in effect right now, the 2001 and 
2002, and I want to ask each of you if you believe, in light of 
the current circumstances in the Middle East and in the Gulf 
region, if it is time to craft a new AUMF and, if so, how 
should we do so?
    What should its components be and how might we begin 
looking at that?
    Dr. Haass, if you might begin.
    Dr. Haass. The honest answer is I have not thought it 
completely through. But I am increasingly inclined in the 
direction of yes, that ones that simply deal with threats from 
terrorism or, obviously, Iraq are inadequate and we have 
already discussed here today two scenarios involving Iran.
    One is the possibility that Iran breaks out significantly 
from the 2015 JCPOA and we are faced with a consequential 
decision whether to undertake classical preventive military 
strike.
    The other is to deal with situations where Iran continues 
to attack its neighbors or continues to attack U.S. individuals 
or forces through using whatever set of tools and we decide it 
is important to retaliate.
    So we do not need an AUMF, just to be clear, for situations 
where imminence is in play.
    Mr. Phillips. Of course.
    Dr. Haass. That is the right of self-defense. So let's take 
that off the board.
    So the real question is whether we would need an AUMF, and 
I increasingly think yes in terms--just because of the nuclear 
situation.
    I think it sends some useful messages to Iran about our 
collective preparedness. I do not think war powers is adequate 
because war powers gives the administration--war powers is the 
wrong approach for two reasons.
    One, it allows the administration to attack unilaterally, 
and then it raises questions about our staying power. So I 
think war powers is counterproductive for both reasons.
    I do think, though, that it would be very smart that if an 
AUMF were passed that it be effectively coupled or passed 
simultaneously with the introduction of a new diplomatic 
initiative.
    I think the two could very much go hand in hand. That is my 
tentative thinking. But I think you raise a big question and a 
good one.
    Mr. Phillips. Thank you, sir.
    Ms. Haines.
    Ms. Haines. Thank you, Congressman.
    I do think this is a critical issue and the sort of 
opportunity for Congress to get more involved in shaping what 
in fact the authority for the use of force abroad is critical, 
in my view.
    I think as an initial matter I think you should be 
replacing the 2001 AUMF that relates to counterterrorism.
    I think it is time for that to be updated and to be 
consistent with how Congress believes the administration and 
successive administrations should, in fact, prosecute that 
conflict.
    I think that the Iraq AUMF--the 2002 Iraq AUMF--should be 
repealed. That is something that we voiced our support for in 
the Obama Administration and the president then called for.
    I am not aware of any military operations that have to rely 
on that AUMF, and I think this question of what should be the 
authorization to use military force against Iran, if at all, is 
one that, in many respects, it seemed to me that your 
concurrent resolution passed recently--the Slotkin resolution--
is one that sort of lays out what you view to be the situation 
right now and does so quite eloquently in the context of the 
current crisis, in a sense, with Iran.
    So I would support seeing that come to a vote but taking 
further action on the existing AUMFs and expanding. Thank you.
    Mr. Phillips. Thank you. I have got about 15 seconds, Mr. 
Hadley.
    Mr. Hadley. There are new circumstances. There are new 
contingencies. If you could get agreement on AUMF it would 
provide a firmer foundation for action if it was required.
    There is an awful lot of confusion here. This whole issue 
about imminent attack is not an issue about the president's 
constitutional authority, which is much broader than that.
    It really comes as a function of international law. I do 
not know why it is so front and center the way it is, and I 
would say the AUMF has to, in that process, be careful that not 
only vindicating congressional authorities but providing enough 
flexibility for the President to act.
    And to say the President could only act, for example, under 
the basis of American--an attack on America or an imminent 
attack is much too narrow and would, I think, be real folly.
    Mr. Phillips. Thank you, sir.
    I yield back.
    Chairman Engel. Thank you.
    Mr. Fitzpatrick.
    Mr. Fitzpatrick. Thank you, Mr. Chairman. Thank you all for 
your service. Thank you for being here today.
    Regarding the JCPOA, would you or would you not agree that 
for such an agreement to work the signatories to that 
agreement, the members of that agreement, must be telling the 
truth and acting in good faith?
    Mr. Haass.
    Dr. Haass. It sounds like the--I must be missing something. 
Is that--would that be different than any other international 
agreement?
    Mr. Fitzpatrick. I am just saying for this one, in 
particular.
    Dr. Haass. Well, I mean----
    Mr. Fitzpatrick. Do you believe that those two qualities 
must be present for an agreement for----
    Dr. Haass. Well, if I may quote Mr.--President Reagan, you 
trust but you verify.
    I have no--I assume countries go into international 
agreements for any number of reasons. In some cases they may 
want to deceive. That is why there has to be adequate 
verification. I do not take anyone's word for it.
    Mr. Fitzpatrick. But do you believe that we should assume 
in entering such an agreement that the signatories are acting 
in good faith?
    Dr. Haass. I would not assume that. That is why I believe 
verification and monitoring are essential.
    Mr. Fitzpatrick. Ms. Haines.
    Ms. Haines. Yes. I mean, I think as Dr. Haass is 
reflecting, in many agreements, for example, in the context of 
arms control--and the JCPOA is no different--the fact is you do 
not trust the partner across the table from you, in a sense.
    You are trying to construct a regime that gives you the 
confidence nevertheless to take certain actions in order to 
manage a threat.
    Mr. Fitzpatrick. Mr. Hadley.
    Mr. Hadley. I have nothing to add.
    Mr. Fitzpatrick. What I am getting at here to the panel, do 
you believe that the Iranian regime tells the truth and acts in 
good faith?
    Dr. Haass. This agreement--they complied with it. I do not 
believe, however, in any way they gave up their long-term goal 
of preserving the option to develop a nuclear weapons 
capability. So they----
    Mr. Fitzpatrick. Will that be a yes or a no, sir?
    Dr. Haass. Well, Congressman, not every question lends 
itself to a yes or no. They were complying with the letter of 
the agreement. I do think Iran was preserving its nuclear 
weapons options.
    Ms. Haines. I think the whole construct around the JCPOA is 
to avoid the situation in which you have to rely on simply a 
statement from the Iranian government that says, we are 
complying.
    We actually created the verification monitoring regime just 
to deal with that issue and to provide us with greater insight 
so that we could credibly judge for ourselves whether or not 
compliance was occurring and rely on additional third parties 
like the IAEA to tell us.
    Mr. Hadley. I think because there was so little trust in 
the Iranian regime that is why a lot of Members of Congress and 
others thought that the JCPOA was not adequate, because it did 
not push off or totally eliminate the option of Iran to have a 
nuclear weapon.
    Mr. Fitzpatrick. So with the isolated kinetic strikes that 
took out Osama bin Laden, Abu Bakr al-Baghdadi, Qasem 
Soleimani, does the panel--did the panel support and do you 
believe it was the right decision to make to conduct that raid 
on bin Laden, on Abu Bakr al-Baghdadi--two leaders of ISIS?
    Dr. Haass. I would argue yes.
    Ms. Haines. Yes. I think these are very distinguishable 
circumstances. Thank you.
    Mr. Hadley. Yes.
    Mr. Fitzpatrick. And how are they distinguishable, Ms. 
Haines?
    Ms. Haines. Sure. So in the context of, for example, Osama 
bin Laden, the head of a terrorist organization that we were at 
war with and that we had, in fact, an authorization to use 
military force against, the United States took action.
    I do not think that was a surprise to anybody. I do not 
think that it created a circumstance in which we were taking on 
a new war, for example, against a whole another nation state.
    Mr. Fitzpatrick. Do you believe Mr. Soleimani is the head 
of a terrorist organization?
    Ms. Haines. I believe that Qasem Soleimani supported and 
engaged in terrorist action and there is absolutely no question 
about that, and I do not have any--look as I said in my 
testimony, as I repeated and I think as others have as well, I 
think he deserved his fate. I do not think that is the issue. I 
do not mourn the loss of Soleimani.
    I think the issue is that in every circumstance when you 
are using the awesome military force of the United States and 
you are engaging in these issues, you have to do so as part of 
a strategy.
    And the question always occurs is this the right target--is 
this the right action to be taking in this context. And I 
think, you know, as I have already identified a whole series of 
consequences that I believe were actually undermined the 
overall objectives that both prior administration and this 
administration have.
    Mr. Fitzpatrick. Mr. Chairman, I have other questions but I 
want to yield my remaining 30 seconds to my colleague, Mr. 
Zeldin.
    Mr. Zeldin. I will let----
    Chairman Engel. Yes, go----
    Mr. Zeldin. I will yield back, Mr. Chairman.
    Mr. Fitzpatrick. Mr. Chairman, I yield.
    Chairman Engel. Yield back.
    OK. The gentleman yields back.
    Ms. Omar.
    Ms. Omar. Thank you, Chairman. Thank you to the panel.
    With running between committees it is really hard to be 
here and to hear many of the questions and the testimony that 
you all gave. Sorry if this question has already been asked and 
if you all have given an input to this.
    But, Dr. Haass, I know that you have been somewhat critical 
of the JCPOA. Your perspective is that it is too short term. 
And so I am wondering what should a deal look like.
    Dr. Haass. I think it is important to be clear about what a 
deal could realistically include and what it could not. I think 
it could include longer-term limits, ideally open-ended limits. 
I do not see why Iran should have the right to get close to 
developing a nuclear weapon in 50 years or 75 years.
    So I would prefer open-ended efforts. But if not that, many 
decades. I think it should include ballistic missiles. What I 
think--I think it should be verifiable.
    I think it has to involve sanctions relief and I think, 
though, that other aspects of Iranian behavior in the region 
should be dealt with other ways.
    I do not think it is realistic to build a quote, unquote, 
``grand bargain'' that would resolve all of our concerns with 
Iran. In my experience, all or nothing diplomacy tends to yield 
nothing.
    Ms. Omar. I appreciate that answer.
    And so to you and maybe to the rest of the panel, I am 
wondering why would Iran, after we unilaterally left the JCPOA, 
assassinated Soleimani, destroyed their economy with our 
sanctions, threatened to bomb their cultural sites, why would 
they be willing to enter into a better deal with us at this 
moment?
    Dr. Haass. The reason they might is, as you know, governing 
is about choices. The economic sanctions are having a 
significant toll. They could conceivably threaten the viability 
of the government and the revolution.
    So I would think that if Iran is offered significant 
sanctions relief that might be something that they would 
countenance.
    They say they do not want nuclear weapons so we are not--
ought not to change that. So I think the question is if we can 
present them with a choice I would not rule out one other 
thing.
    I think we probably would need to have it voted on by the 
Congress. They would need to know that the next deal is not 
something that this or any President could unilaterally 
overturn.
    I would think they would want to have the confidence that 
was truly embedded in the policy of the United States.
    Ms. Haines. Thank you, Congresswoman.
    I guess from my perspective, I continue to hope that there 
is an opportunity for negotiations and diplomacy, and I think 
we do need to invest in that and I have indicated that that's 
one of my recommendations, moving forward.
    I think it is very unlikely that we are going to see the 
Trump Administration capable of bringing the Iranians to the 
table and negotiating a deal like that. I think that is a 
reality and I--you know, unfortunate as that is.
    Ms. Omar. Mr. Hadley, did you have anything to add?
    Mr. Hadley. I am a little more optimistic than my good 
friend, Avril Haines, is and I think Richard Haass said it very 
well and I subscribe to his comments.
    Ms. Omar. Well, I appreciate your insights and it is, I 
think, quite fascinating to hear that you all think critical 
sanctions relief package would be on the table for Iran if it 
was to reengage more significant than that was part of the 
JCPOA? I am sure that that is excellent.
    And it seems as if there are opportunities to negotiate. So 
I hope that cooler heads prevail and that we deploy diplomacy 
and look at using many of the tools that we have in our 
toolbox, because what is happening right now in the ways that 
things have escalated it is not going to make us safer and it 
is not going to alleviate the economic burdens that the 
civilians of Iran are facing at the moment.
    Thank you, and I yield back.
    Chairman Engel. Thank you.
    Mrs. Wagner.
    Mrs. Wagner. Thank you, Mr. Chairman. Over here.
    Two weeks ago, President Trump ended Qasem Soleimani's 
brutal reign of terror that killed and maimed countless 
Americans and coalition forces and threatened many, many more 
to come.
    I urge all Americans to unite behind the President's 
defensive decision to strike one of the world's most powerful 
terrorist who was organizing against--organizing attacks 
against Americans in Iraq in defiance, I might add, of U.N. 
Security Council Resolution 2231.
    He should not even have been in Iraq. Should not have been 
in Beirut. Should not have been in Damascus.
    For far too long, Tehran has been permitted to act with 
impunity against U.S. allies' interests and its personnel. I 
applaud the President for making our red lines clear.
    Clear to the Iranian regime that attacking Americans is 
never acceptable and when American lives hang in the balance, 
Iran will be held to account for its actions.
    The Middle East is a safer place when the United States is 
clear and consistent in its intentions.
    Mr. Hadley, to what degree are Iran's proxies dependent on 
Tehran for financial, material, and technical assistance and 
how successful has the United States been in preventing Iran 
from providing significant support to these proxy groups?
    Mr. Hadley. I am not privy to intelligence anymore and have 
not been for a long time on these subjects. My understanding is 
that the economic pressure that Iran is now under has resulted 
in some diminishment of the resources that are available to 
these groups.
    I think, for example, Nasrallah, who is head of Hezbollah, 
has actually complained that he does not have enough resources 
for his activities.
    So I think it is having effect based on what I have read in 
public sources. But I do not have the kind of intelligence 
sources available to me that would allow me to give you a 
better answer to that question.
    Mrs. Wagner. Well, I thank you. They have clearly gone 
through the $150 billion plus that were sent over by the Obama 
Administration strapped to pallets to be used for these proxies 
to kill people around the globe, including our American allies 
and assets.
    After the Iranian regime admitted that it shot down 
Ukrainian International Airlines Flight 752, tragically killing 
176 passengers, and I know it has been discussed here at 
length, protests did erupt across the country.
    Mr. Hadley, how are these protests connected, do you think, 
to the pro-democracy pro--economic reformed demonstrations of 
the last few years and do you think that this public outrage 
will constrain Iran's foreign policy? Can it be constrained?
    Mr. Hadley. It has been interesting to see how many 
demonstrations there have been in the last 2 years of people 
demanding accountability from their government's ending of 
corruption, less sectarianism, governments that actually 
perform.
    You have seen it in Algeria. You have seen it in Sudan. You 
have seen it in Lebanon. You have seen it in Iraq. You have 
seen it in Iran, a lot of other places in the Middle East.
    This is a positive thing and I think it is one of the 
sources of leverage on the Iranian regime that may make them 
willing to come to the table and negotiate an outcome.
    Because they put down the demonstrations in October and 
November only by a fairly brutal use of force, and I think they 
are worried that the additional sanctions will kindle a return 
to those kinds of demonstrations that could threaten the regime 
and is a threat to the regime, as Richard Haass said, that 
might bring them to the table for negotiations.
    Mrs. Wagner. I absolutely agree, and that is why I also 
share your bullishness on the opportunity that we have at this 
moment of time to bring Iran to the table for further 
negotiations, more now than ever, and these protests and the 
public outrage I think could really have an effect as we go 
forward in foreign policy and such.
    So there were reports that indicated that Iran has worked 
to reduce internet connectivity near universities, hot spots, 
limiting the impact of these protests.
    How vulnerable is the regime to information operations and 
how should the U.S. be using information to target the regime's 
weaknesses and empower this change?
    Mr. Hadley.
    Mr. Hadley. Well, they have cutoff the internet to keep 
demonstrators from organizing as a part of their suppression of 
public demonstrations, clearly.
    Our best information operation has always been truth and 
trying to get it to the people in these closed societies 
because what is really the toxic element for them is actually 
truth about what is happening in the world, and I think we have 
not done as good a job as we should in getting truth available 
to people in these totalitarian or authoritarian societies.
    Mrs. Wagner. I agree. My time has expired.
    I shall yield back. But here is to the truth and the 
Iranian people.
    Chairman Engel. Thank you.
    Ms. Wild.
    Ms. Wild. Thank you, Mr. Chairman.
    Good afternoon. I would like to start with a question to 
you, Ms. Haines. Recently, I had the honor over the Christmas 
week of traveling to the Middle East and meeting with our 
troops, some of the extraordinary service members who put their 
lives on the line for us, and I have been thinking about those 
men and women an awful lot over the last couple of weeks.
    Last week, the President said we must all work together 
toward making a deal with Iran that makes the world a safer and 
more peaceful place.
    But then just this past Sunday he tweeted, I could not care 
less if they--the Iranians--negotiate.
    We, in Congress, unfortunately, have been given little to 
no information about the administration's intelligence that 
they allegedly had before this strike on Soleimani.
    So my question to you is in your assessment does the 
President and his administration have a clear strategy to 
actively reduce tensions between Iran and the United States and 
to prevent conflict?
    Ms. Haines. I think I was encouraged as you were by the 
idea that they are interested in negotiating something 
diplomatically.
    I have to say--I mean, I have not seen anything that puts 
together a broader strategy that would actually be likely to 
result in the kind of negotiations that I could imagine, 
hopefully, happening in the future.
    But, I mean, honestly, I do not know that I would know. I 
certainly hope that they do have something. But I hope also 
that they will share it if they do so that we can actually all 
participate in understanding it and pushing forward on it.
    Ms. Wild. So I take it from your response that you have no 
greater information than we do here in Congress and, as a 
result, you would not be able to answer my followup question of 
whether the United States national security is stronger now 
than it was a few weeks ago?
    Ms. Haines. Yes. I mean, I have made a case in my testimony 
that it is not--that I think that the action that was taken 
really further undermines the objectives that at least have 
been articulated by this administration and are actually quite 
consistent with the prior administration's objectives for the 
region.
    And I think it is unfortunate that we are in the place that 
we are and, obviously all of us need to come from here and try 
to make the best out of it that we possibly can.
    But I do think we are less safe in many respects as a 
consequence.
    Ms. Wild. Dr. Haass, I would like to ask you and, first, I 
would just like to state the obvious, I think, that while 
tensions between Iran and the United States revolve around many 
issues, none of these issues are more consequential than the 
possibility of Iran obtaining a nuclear weapon. I think we can 
all agree on that.
    In the aftermath of the strike on General Soleimani, Iran 
announced that it would no longer abide by the JCPOA 
restrictions on Iran's uranium enrichment activities as well as 
restrictions on further research and development that could 
contribute to building a nuclear weapons program.
    And so my question to you is with this as context, has the 
strike made it more or less likely, or neither, that Iran will 
ultimately be able to develop a nuclear weapon?
    Dr. Haass. I am not avoiding your question. I think the 
answer is it is too soon to know that. I think the U.S. 
decision to exit the JCPOA set in motion a chain of events 
which explains where we are.
    Because I cannot answer your question, I would say two 
things. One is we ought to be communicating to Iran certain red 
lines that would be the limits to our tolerance of what they 
might do and that would reflect our views, Israel's views, Arab 
views. We do not want Iran doing certain things.
    Second, I do think we ought to put forward, as we discussed 
before, an initiative that would improve upon the JCPOA and put 
it forward in terms that might be actually not totally 
unattractive, conceivably even attractive to the Iranian 
government given the circumstances they find theirselves in.
    I want to avoid a situation where we cannot answer your 
question, and what we fear and what could actually be is that 
Iran begins to reduce the time that would be available for 
intelligence agencies to discern exactly how far they are away.
    If we ever reach that point where we simply do not know or 
it starts getting close, what I would call the near nuclear 
option, one, we will have a big debate, as will Israel, about 
whether to undertake a preventive military strike to Saudi 
Arabia, Turkey, Egypt, and others will begin to have their 
version of National Security Council meetings about whether 
they need to follow suit and develop nuclear weapons options of 
their own.
    And as bad is the Middle East is right now, it does not 
take a whole lot of imagination to see how much worse that 
Middle East would be.
    Ms. Wild. So you used the term red lines, and a few minutes 
ago my colleague, Mrs. Wagner, used that same term, and I just 
realized that I am out of time. I apologize, Mr. Chairman, and 
I withdraw the question.
    Chairman Engel. Thank you. The gentlewoman withdraws the 
question.
    Thank you.
    Mr. Watkins.
    Mr. Watkins. Thank you, Mr. Chairman. Thanks to the panel 
for being here.
    Couple of comments. I want to express my full and complete 
support of our President. I think President Trump has done an 
outstanding job transitioning from a strategy of appeasement to 
one of credible deterrence.
    And I also want to express support and hope that we can 
muster solidarity behind the Iranian protestors. I spent many 
years working in Iraq and Afghanistan, and so from the 
perspective of both a military officer and a--former military 
officer and a defense contractor, I think that perspective and 
voice might be worth hearing.
    When it comes to military operations, they need many 
things. But two things that they certainly need are speed and 
secrecy, or the ability to deliver in a clandestine nature.
    This body is incapable of both of those--of either of those 
things. And so when it comes to if it were a just kill, I 
understand the importance of striking fast and striking hard, 
and the justice of killing Soleimani is without question.
    If you were to ask me or a number of military personnel in 
Baghdad to strike a designated insurgent who is responsible for 
killing 600 of our brothers and sisters and they were headed 
down Route Irish, we would grab our guns and we would go kill 
him, and if that is wrong we would not want to be right, and it 
saddens me that we cannot rally behind that.
    And over the mere fact that some of his compensation 
apparently came from the government of Iraq, I mean, think 
about that. That constitutes the fact that he was graded as an 
employee of a country. Well, he was the world's leading sponsor 
of terrorism.
    So listen, nobody wants war, particularly the American 
soldier because he or she needs to fight in it. But I think I 
speak certainly for a lot of people that I knew when I said 
that the world is a safer place with one less insurgent in it 
and for that matter, when it comes to safety and the very 
nature of credible deterrence, when we are conducting 
operations you want other insurgents--you know that they can 
see you.
    You want them to know that should anything happen to you, 
if they wanted to take the risk of striking you, then a Reaper 
drone is going to rain hellfire down on them.
    And moreover, to those low-ranking foot soldier insurgents 
throughout the world, whatever country they are in--Syria or 
Lebanon or al-Anbar, Iraq, wherever--you want them to second 
guess their choices because if we could take our your general, 
we could sure as hell kill you.
    So I would like to close on just reiterating my full and 
complete support of President Trump and his choice to go with a 
credible deterrent strategy and that is, in fact, the strategy.
    I would like to say that I have heard Soleimani being 
described as a martyr. Martyr is somebody willing to die at the 
hands of an oppressor for his or her beliefs, not a ruthless 
killer. I appreciate that and, again, I want to voice support 
for the Iranian protestors.
    God be with them.
    Thank you, Mr. Chairman.
    Sorry. I yield the balance of my time to Mr. Zeldin.
    Mr. Zeldin. I appreciate that. Thank you, Mr. Watkins.
    Ms. Haines, we got rushed in our exchange there toward the 
end of my 5 minutes and were not able to do that important 
topic justice there at the end.
    So the Obama Administration had air strikes in Libya in 
2011 as well as after 2011. The final decisionmaking for that 
process for the strikes after 2011 were use of AUMF targeting 
ISIL.
    The final decision in the air strikes in 2011 was under 
Article 2, correct?
    Ms. Haines. So the initial use of force in Libya that I 
thought you were referencing was not done under an 
authorization to use military force. It was done under Article 
2.
    As you indicated, there was a war powers report that was 
provided to the Congress and then there was, essentially, a 
discussion with the Congress on whether or not we continue to 
be in hostilities.
    And then there were, after the fall of Gaddafi and further 
action in the context of Libya, there were--there was a shift, 
in a sense, of what the conflict was about and what the targets 
were and effectively what we were trying--the threat we were 
trying to address and some of it came under the 2001 AUMF, not 
just with respect to ISIS but al-Qaida and associated forces.
    Mr. Zeldin. OK. I just wanted to make sure we get on the 
same page. Thank you. I yield back.
    Chairman Engel. Mr. Allred.
    Mr. Allred. Thank you, Mr. Chairman.
    I want to begin by expressing my disappointment that 
Secretary Pompeo is not here. With the shifting rationales that 
the American people have been given for this strike, I think it 
is important that we have a public viewing and discussion about 
what went into this.
    And I think on this committee we are going to have to be 
very--as aggressive as necessary to make sure that we are able 
to perform our oversight function.
    I want to thank the members of the panel for being here 
today. I know you probably had other things planned. We 
appreciate you making time.
    I am worried that this action has made us less safe but I 
am also worried about the reputational damage that it has done.
    For years, Democratic and Republican presidents have urged 
countries to avoid cultural and historical sites in wartime. It 
is against, of course, the laws of war and it is also morally 
wrong.
    But just last week, of course, President Trump tweeted the 
U.S. may strike Iranian cultural sites if Iran escalated the 
conflict further.
    Of course, the Department of Defense appeared to walk those 
comments back. Trump's remarks were widely publicized and, of 
course, widely criticized as well.
    To each of you on the panel, I just want to ask you how do 
you think the people of the Middle East view those statements?
    How does that impact our reputation in the region? How does 
that undermine our ability to reach any further agreements to 
try and deescalate?
    Dr. Haass, do you want to go?
    Dr. Haass. As was implicit in your question, that, 
obviously, does not help.
    Look, I think our reputation has taken a hit several ways 
here. One is the mention you had, sir, of the possibility of 
targeting cultural sites, which would also be inconsistent with 
what many of your colleagues have mentioned about our desire to 
side with the Iranian people. Going after cultural sites is not 
going to help us in that--in that undertaking.
    I think also we have hurt ourselves a little bit on not 
being able to publicly back up the claim of imminence and that 
has, clearly, hurt us in Iraq because it makes it much harder 
to justify what we did.
    And all of this does not take place, shall we say, absent 
of context in the entire post-2003 inability to demonstrate the 
WMD link to Saddam.
    So I think what we have done is created questions about our 
reputation and I think that we will pay a price for that.
    Ms. Haines. Thank you, Congressman, and particularly for 
bringing this issue up because I think from my perspective, I 
found that--I am somebody who believes very strongly in 
international law.
    I spent most of my career working on international law and 
I think it serves American interests in enormous ways.
    And to see the President tweet, essentially, what would be 
a war crime as something that we should do or could do or 
anything along those lines to also talk about disproportionate 
strikes, which is also not consistent with the law of war.
    You know, to take a position like that is not just, I 
think, of concern to the region but also deeply depressing, 
frankly, for the folks in the U.S. Government who are 
frequently out--for example, our military--out training other 
militaries on what the law of war is and how it is that we 
should respect the law of war and the kinds of issues that we 
deal with.
    And in the context of particularly targeting cultural 
property, which is, really, it is so much more than destroying, 
obviously, the bricks and mortar that you are destroying, but 
it is an attack on the identity, on the memory, on the dignity 
of a society.
    And this is something that we spearheaded a lot of the 
international law on and we have a convention, the Hague 
Cultural Property Convention that we are a party to. We are 
also a party to one of the protocols.
    It is something that we really celebrated in the United 
States in many respects as an issue that we should be promoting 
leadership on, and I found it very deeply depressing, frankly.
    Mr. Allred. Thank you.
    Mr. Hadley.
    Mr. Hadley. I think it was a mistake. As you know--as you 
indicated, the Department of Defense began to walk it back. I 
think Secretary Pompeo said any strikes in Iran would be 
against legal targets, which, of course, would rule out 
cultural sites.
    So I think it was a mistake and I think--I would not expect 
to see the United States attacking cultural sites.
    Mr. Allred. Well, I think we sometimes fall into the bad 
habit of pretending that the words of the President of the 
United States do not matter and that we can just have this 
debate as if those things were not said and as if we did not 
threaten a war crime in this region in which we know how long 
some of these words can echo.
    I think the reason that the free world follows us and that 
despots and dictators fear us is because of our values, because 
of who we are and what the American flag and what our system of 
government and our values mean around the world.
    When we undermine that, I think we do much, much more than 
any insurgent attack could do to us, much more damage than any 
foreign country could do to us because they cannot defeat us 
militarily.
    But we can undermine our own values abroad and it deeply 
worries me. I am glad that we are having this discussion today.
    Chairman Engel. Thank you.
    I want to acknowledge an old friend, Congressman Sheila 
Jackson Lee, who was a member of this committee for many years 
in olden days when I served on it.
    So welcome back, Sheila. Good to see you.
    We have a vote and what I could do is cut down everyone to 
3 minutes to try to get in more people, if we can.
    So let me start with Mr. Guest.
    Mr. Guest. Thank you, Mr. Chairman.
    Dr. Haass, you--in your written testimony you do a great 
job of outlining some of the Iranian atrocities over the last 
40 years, beginning with the 1979 embassy takeover, the 1983 
bombing of the barracks in Beirut, the 1996 Khobar Tower 
bombings.
    You also set forth recent aggression, including attacks on 
shipping in the Persian Gulf, the downing of an American drone, 
the launching of missiles that hit the Saudi oil installations, 
the sponsoring of militias that attack bases in Iraq, the 
killing of an American contractor, then the recent assault on 
the American embassy.
    You go on further to say there is no doubt that Soleimani 
had the blood of Americans on his hand and was a force of 
instability in the region and you actually state that Soleimani 
was in fact, you say here, an evil person.
    And then you go on at the end of Page 2 to talk about that 
the United States should have responded to recent Iranian 
attacks such as the one carried out against Saudi oil fields 
with attacks on Iranian economic and military assets.
    What should the proper response should have been? It seems 
to me that you are stating here that the President's use of 
restraint actually emboldened Iranian aggression in the Middle 
East.
    And so what would the proper response and what response 
should we have taken, particularly militarily? It seems to me 
economically that we have imposed as many sanctions that we can 
possibly impose and we could continue to impose sanctions from 
here til Hell freezes over and have no additional benefit to 
those.
    So militarily what response should the United States have 
taken after the Saudi oil fields were attacked?
    Dr. Haass. Two things, sir.
    One is I think we should have found an equivalent Iranian 
economic installation and I would have--I would have supported 
the idea of a attacking that.
    Two, I think it sent a very bad message to the region that 
we would not respond to an attack on a close partner, like 
Saudi Arabia. I do not want to get--I never want to communicate 
the sense that they are essentially adrift and they--and they 
cannot count on it.
    Third, I think it raises questions for you all and it gets 
back to the conversation we had previously about an AUMF that 
would provide a context for dealing with these kinds of acts of 
Iranian aggression.
    Mr. Guest. And, Ms. Haines, do you agree that the United 
States should have attacked Iran militarily after their assault 
on the Saudi oil fields?
    Ms. Haines. Yes, I think there should have been a response 
and my view is very similar to what you have described of Dr. 
Haass's view and as we contain here that essentially by not 
responding in a way it encouraged some response.
    But the issue is, again, taking action to manage and to 
deter appropriately while trying to mitigate against the 
consequences that are additional to any action that you take.
    Does that make sense?
    Mr. Guest. And so would both of you all then say that the 
President's use of restraint or great use of restraint you feel 
emboldened Iran to continue to attack American interests in the 
Middle East?
    Dr. Haass. Again, it is always hard to put yourself inside 
their heads. But my own take on it is yes, that they thought 
that they could act with a degree of impunity because they had 
gotten away with shooting down a drone, attacking shipping, 
attacking the Saudis.
    I would expect there were people in Iran who basically say, 
we can do certain things and the chances of an American 
physical response are modest.
    Chairman Engel. Thank you.
    Mr. Levin.
    Let me first say before Mr. Levin comes here, really 
interesting--it was just called to my attention that Secretary 
Pompeo does not have the time to come to this committee but 
while we are holding this hearing he did have time to go on Fox 
News.
    Okay.
    Mr. Levin. Thank you, Mr. Chairman.
    Chairman Engel. Mr. Levin.
    Mr. Levin. Thank you all for hanging in here with us.
    Last weekend, National Security Advisor Robert O'Brien said 
the 2002 Iraq war authorization gave the administration the 
authority to launch the strike that killed Qasem Soleimani.
    Here is the operative text of that authorization. The 
president is authorized to use the armed forces of the United 
States as he determines to be necessary and appropriate in 
order to, one, defend the national security of the United 
States against the continuing threats posed by Iraq, and two, 
enforce all relevant U.N. Security Council resolutions 
regarding Iraq.
    I think that language is pretty clear and so did Defense 
Secretary Esper. During his Senate confirmation last year on 
July 16th before the Senate Armed Services Committee the 
secretary told Senator Duckworth that the 2001 and 2002 
authorizations to use military force did not allow the use of 
military force against Iran. And yet, here we are.
    Again, the 2002 Iraq war authorization allows the use of 
force to deal with the threat posed by Iraq. Not a threat 
necessarily in Iraq or emanating from Iraq but by Iraq.
    Ms. Haines, do you agree that this does not authorize the 
use of force against Iran--the 2002 AUMF?
    Ms. Haines. Yes. I mean, to be simple, yes, I do not think 
it is authorized by the 2002 AUMF and I did hear the prior 
statements by the administration to at least indicate that they 
also did not think that----
    Mr. Levin. All right. Let me further ask you, if Congress 
fails to make clear that the 2002 war authorization or the 2001 
for that matter does not apply to Iran, aren't we setting a 
dangerous precedent?
    What is it to stop this administration or any future 
administration from claiming that a war authorization for one 
country gives them the okay to use force against another?
    Ms. Haines. Yes. So there is--classically, in my 
experience, the way that administrations would essentially look 
at an authorization to use military force, like, for example, 
the 2001 authorization to use military force, is that they 
would then consider if another act or whether it be a terrorist 
organization as it would be in that particular AUMF case or in 
the context of an AUMF vis-a-vis another country--if that 
country entered into an alliance and was fighting against the 
United States then there could be an extension of that 
authorization to another State in that circumstance.
    But I think, you know, obviously, Congress has the ability 
to pass another joint resolution that says in fact that is not 
what we intended and we do not in fact authorize this.
    Mr. Levin. Right. I mean, my time is up because we are 
running short here. But I just think that it is clear that 
Congress needs to repeal the 2001 and 2002 and then do new 
authorizations for any situation that we think we should go to 
war on.
    Thank you.
    Ms. Haines. I agree.
    Chairman Engel. Thank you.
    Ms. Spanberger.
    Ms. Spanberger. Thank you so much to the witnesses.
    Ms. Haines, it is so great to see you. I have been 
astounded listening to some of the testimony or the questions 
of my colleagues as we are talking through what should be a 
really foundational piece--what is Congress's war--Congress's 
role in the authorization of war.
    I have heard a lot of debate about what happened a week 
ago, 10 years ago, 15 years ago, 16, 20, 25, et cetera, years 
ago.
    But what I want to move forward and talk about is the 2001 
AUMF and the 2002 AUMF, and Ms. Haines, I will start with you 
specifically as a followup to the questions posed by 
Congressman Phillips and Congressman Levin.
    The 2002 AUMF--we will start there--authorization for our 
war in Iraq. To your knowledge, to restate, are there currently 
any operations continuing under the 2002 AUMF?
    Ms. Haines. Yes. Thank you, Congresswoman.
    I cannot say with certainty, right, what it is that the 
current administration is doing.
    What I can tell you is that in the Obama Administration we 
conducted a significant number of military operations that 
seemed quite similar to what it is, frankly, that is currently 
being done by the Trump Administration against terrorist 
organizations such as al-Qaida and associated forces and, 
obviously, against ISIL, and we did not believe that the 2002 
AUMF was necessary for us to do any of those operations 
including the ones around ISIL, just to be utterly clear, 
including those in Iraq.
    And, as a consequence, we supported the repeal of the 2002 
AUMF, which we felt was outdated. And the president also had 
said that--felt that it was time to replace the 2001 AUMF.
    Ms. Spanberger. Thank you.
    And there seems to be some confusion among members of this 
body about how the killing of Osama bin Laden or al-Baghdadi 
were different and from an authorization standpoint from the 
killing of Soleimani.
    I also think, and I will take the opportunity to restate 
that those of us on this side of the aisle shed no tears for 
Soleimani who, I believe, was a terrorist as he is classified 
by the U.S. Government.
    But could you just walk us through specifically how the 
authorizations--what the authorizations were for the killing of 
Osama bin Laden and al-Baghdadi and how that may or may not be 
the same or different?
    Ms. Haines. Yes. So for Osama bin Laden, the 2001 AUMF is 
quite clear in its authorization to use military force against 
al-Qaida----
    Ms. Spanberger. Authorization by Congress.
    Ms. Haines. Authorization by Congress. Absolutely.
    Ms. Spanberger. Thank you.
    Ms. Haines. And in the case of al-Baghdadi it is, 
obviously, under ISIL and the theory of the Obama 
Administration, which I assume is being used by the Trump 
Administration, was in fact that because ISIL had a 
longstanding relationship with al-Qaida and with Osama bin 
Laden and, you know, a variety of other factors including the 
fact that they had targeted the United States, that you could 
in fact authorize action against ISIL as well under the 2001 
AUMF, despite the split in leadership between al-Qaida and 
ISIL.
    Chairman Engel. Thank you.
    Ms. Houlahan.
    Ms. Houlahan. Thank you very much for coming and I would 
also like to echo my concern that Secretary Pompeo is not here 
today.
    I do have two very specific questions. One reflects on Mr. 
Kinzinger's conversation about the responsibility that people 
in the military have to understand that they won't necessarily 
be safe. That is their job.
    But we also have a responsibility in Congress and with the 
administration to make sure that we are deploying them 
effectively and that we are keeping them as safe as possible by 
using the other resources and tools in the toolbox that we 
have, which is diplomacy and humanitarian efforts.
    And so my question to you directly is what happens now that 
we have sent thousands of troops into the Middle East in terms 
of our efforts in Russia or against China and the concern of 
great powers?
    Dr. Haass. I made the criticism the other day that I 
thought sending more troops to the Middle East right now lent 
a--the phrase I used was strategic incoherence.
    This administration has articulated publicly the need for a 
much greater emphasis on great powers, the challenge they pose, 
and its entire bias was to dial down the American emphasis on 
the--on the greater Middle East.
    I thought they went too far on what they did in Syria. This 
is, clearly, inconsistent with it. So I would think it is--
given the administration's own lights, it would make a good 
deal of sense to try to stabilize things.
    I think that does involve, as you suggested, a greater 
emphasis on diplomatic tools.
    In the short run, though, it may now be necessary to have 
those troops there because we have created--we have, if you 
will, poked the stick in the hornet's nest.
    But I am hoping it is not a--this does not become the new 
normal because the impact on readiness, the impact on what 
would be available elsewhere would be--would be, I think, 
unfortunate.
    Ms. Houlahan. And thank you. I am sorry that I do not have 
time to ask the rest of you because I have one question, which 
is that the U.N. Security Council Resolution 2231, which is set 
to expire now on October 18th, what if anything should we be 
doing to make sure that we are thinking about and address the 
expiration of that resolution?
    Those are the--it is the resolution that I expressed as the 
importance that Iran is prohibited from exporting or purchasing 
any arms.
    This is what President Trump is talking about when he says 
that everything is set to expire and that is part of the reason 
why he exited the JCPOA.
    Ms. Haines. Yes, and your question is just----
    Ms. Houlahan. Is there anything that we can do here in this 
body, given that the U.N.--that that is set to expire.
    Ms. Haines. Right. I mean, I think, obviously, you can 
support the administration and push them to, essentially, look 
for extensions of any restrictions that you think are 
appropriate on----
    Ms. Houlahan. And in what ways should our policy change if 
the--if Iran was able to sell and acquire combat systems as a 
consequence of this? With my 4 seconds.
    Hay. Yes. I mean, essentially, as a preliminary matter what 
you want to do is see what they do and, in fact, whether or not 
they could push out conventional arms more than they already 
do.
    We already have policy that actually tries to counter those 
issues as it is and we would, obviously, want to increase, you 
know, depending on whether or not they are increasing their 
exports----
    [Simultaneous speaking]
    Ms. Houlahan. Thank you. I apologize. Yield back.
    Chairman Engel. Thank you.
    Mr. Trone.
    Mr. Trone. Dr. Haass, just quickly, prior to the 
assassination we had real protests in the streets against Iran 
and they had a war for over 8 years.
    A hundred thousand Iraqis died. A hundred thousand Iranians 
died. And we were moving in a little bit of positive direction 
on the anti-Iran feeling in Iraq.
    Now that has all swung back. What do you think this recent 
events--this new trajectory is going to do on Iraq's pro-reform 
movement and the protest movement?
    Dr. Haass. Yes, it is a good question. I think Iraqis have 
considerable nationalism and the fact that because they are 
Shi'a and Iran is, obviously, Shi'a that somehow there is not 
nationalism in Iraq, I do not think that is true.
    My guess is also Iran will overplay its hand. So I think it 
is probably wrong to underestimate Iraqi pushback against Iran.
    Again, it is also one of the reasons--I think we all agree 
here 100 percent that it is so important for the United States 
to repair its relationship with Iraq because I think that will 
give Iraqis a basis and some confidence for pushing back 
against Iran. I do not want Iran to have a free hand inside 
Iraq.
    Mr. Trone. OK. We got to run for votes.
    Chairman Engel. OK. I want to first ask very quickly 
unanimous consent that Ms. Sheila Jackson Lee be allowed to 
participate today and giving her 1 minutes.
    Ms. Jackson Lee. Let me quickly say that I have not seen 
any depth of support by the American people for war with Iran. 
I, clearly, believe it is important for us to explain that 
Article 1 does say that Congress declares war. It does give 
Article 2 powers of defending the Nation.
    I do think the issue of imminent danger was--and should be 
explained to the American people and we should be truthful 
about it. So I have two questions.
    One, do we believe that any engagement with Iran, 
respectively, and some resolution is at this point hopeless? I 
truly believe under President Obama when we worked tirelessly 
for the non-nuclear agreement that we had something that would 
allow us a moment to engage.
    And then if anyone wants to comment on this completely 
upside down explanation of imminent and the fact that there was 
no definitive definition or reasoning behind Secretary Pompeo's 
advice or the secretary of defense's advice to the president of 
the United States.
    Chairman Engel. Well, you got 2 seconds, according to this. 
But maybe we can give you 30 seconds.
    [Laughter.]
    Dr. Haass. I do not think it is hopeless. I think that it 
would, you know, do such things as no longer supporting regime 
change, making it clear that we are willing to talk.
    I think putting sanctions relief on the table conditionally 
tied to Iranian behavior, I think that against the backdrop of 
sanctions I think that is--I think there is a possibility. 
Certainly worth pursuing.
    Ms. Jackson Lee. Thank you.
    Chairman Engel. Thank you. Yes, I am going to have to 
adjourn because we have a vote.
    Ms. Jackson Lee. Thank you, Mr. Chairman, for your 
courtesy. Thank you.
    Chairman Engel. Thank you.
    I want to thank our three witnesses. I have been on this 
committee a long time and I think all of you are just excellent 
and I really do appreciate your coming here and speaking with 
us today, and we hope to have you back.
    Thank you. The committee is now adjourned.
    [Whereupon, at 1:31 p.m., the committee was adjourned.]

                                APPENDIX
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



                                 [all]
</pre></body></html>
